<html>
<title> - AN EXAMINATION OF POINT SYSTEMS AS A METHOD FOR SELECTING IMMIGRANTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  AN EXAMINATION OF POINT SYSTEMS AS A METHOD FOR SELECTING IMMIGRANTS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2007

                               __________

                           Serial No. 110-20

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-114                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 1, 2007

                           OPENING STATEMENT

                                                                   Page
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     3

                               WITNESSES

The Honorable Jeff Sessions, a U.S. Senator from the State of 
  Alabama
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9
Ms. Clare Feikert, LL.M., Foreign Law Specialist for the United 
  Kingdom, Law Library of Congress
  Oral Testimony.................................................    26
  Prepared Statement.............................................    28
Mr. Stephen Clarke, LL.M., Senior Foreign Law Specialist, Law 
  Library of Congress
  Oral Testimony.................................................    43
  Prepared Statement.............................................    45
Ms. Lisa White, LL.M., Foreign Law Specialist for Australia and 
  New Zealand, Law Library of Congress
  Oral Testimony.................................................    56
  Prepared Statement.............................................    58
Mr. Demetrios G. Papademetriou, Ph.D., President, Migration 
  Policy Institute
  Oral Testimony.................................................    76
  Prepared Statement.............................................    79
Mr. Howard Greenberg, Partner, Greenberg Turner
  Oral Testimony.................................................    85
  Prepared Statement.............................................    88
Mr. Lance Kaplan, Partner, Fragomen, Del Rey, Bernsen, and Loewy
  Oral Testimony.................................................    98
  Prepared Statement.............................................   100
Mr. Robert Rector, Senior Research Fellow, The Heritage 
  Foundation
  Oral Testimony.................................................   109
  Prepared Statement.............................................   111

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     2
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     4
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     5

                                APPENDIX
               Material Submitted for the Hearing Record

Questions submitted to each of the Law Library of Congress 
  witnesses by the Honorable Steve King, Ranking Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................   133
Memorandum accompanying answers to post-hearing questions posed 
  by the Honorable Steve King, Ranking Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law, received from Rubens Medina, Law Librarian 
  of Congress....................................................   134
Answers to post-hearing questions posed by the Honorable Steve 
  King, Ranking Member, Subcommittee on Immigration, Citizenship, 
  Refugees, Border Security, and International Law, received from 
  Rubens Medina, Law Librarian of Congress.......................   135
Questions submitted to each of the Law Library of Congress 
  witnesses by the Honorable Keith Ellison, Member, Subcommittee 
  on Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................   140
Memorandum accompanying answers to post-hearing questions posed 
  by the Honorable Keith Ellison, Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law, received from Stephen F. Clarke, Senior 
  Foreign Law Specialist, Law Library of Congress................   141
Answers to post-hearing questions posed by the Honorable Keith 
  Ellison, Member, Subcommittee on Immigration, Citizenship, 
  Refugees, Border Security, and International Law, received from 
  Stephen F. Clarke, Senior Foreign Law Specialist, Law Library 
  of Congress....................................................   142
Heritage Special Report entitled ``The Fiscal Cost of Low-Skill 
  Households to the U.S. Taxpayer,'' by Robert Rector, Christine 
  Kim, and Shanea Watkins, Ph.D., published by The Heritage 
  Foundation, submitted by the Honorable Steve King, Ranking 
  Member, Subcommittee on Immigration, Citizenship, Refugees, 
  Border Security, and International Law.........................   164
Letter from the Alliance of Filipinos for Immigrant Rights and 
  Empowerment (AFIRE), et al. to the Honorable Zoe Lofgren, 
  Chairwoman, Subcommittee on Immigration, Citizenship, Refugees, 
  Border Security, and International Law.........................   220


  AN EXAMINATION OF POINT SYSTEMS AS A METHOD FOR SELECTING IMMIGRANTS

                              ----------                              


                          TUESDAY, MAY 1, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:08 p.m., in 
Room 2237, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Berman, Jackson Lee, 
Waters, Delahunt, Ellison and King.
    Staff Present: Ur Mendoza Jaddou, Chief Counsel; R. Blake 
Chisam, Majority Counsel; Benjamin Staub, Professional Staff 
Member; and George Fishman, Minority Counsel.
    Ms. Lofgren. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    I would like to welcome the Immigration Subcommittee 
Members, our witnesses, and members of the public. We are here 
today for the Subcommittee's sixth hearing on comprehensive 
immigration reform.
    In our first five hearings, we examined the need for 
comprehensive immigration to secure our borders, to address 
economic and demographic concerns, and for historical reasons. 
We have examined immigration reform in 1986 and 1996 in an 
effort to avoid the mistakes of the past. Last week, we 
considered the problems with and proposed solutions for our 
current employment and work site verification system.
    Today, we are turning our attention to immigration point 
systems. You might have noticed some talk over the past couple 
of months about selecting immigrants using what's known as a 
``point system,'' such as those used by Canada and Australia. 
Some have suggested replacing many parts of our current 
immigration law with a point system.
    In the United States, we have had three overarching 
criteria by which we select immigrants: family ties, economic 
need, and international humanitarian obligations and 
priorities. We have woven these principles into our immigration 
preference system, and they are woven into the fabric of our 
society.
    Whatever our process, we must remain true to these 
cherished principles of American society. The question is, can 
a point system capture these principles and help us implement 
them in practice?
    I look forward to the testimony today to help us learn more 
about point systems so that we may determine whether it is 
right for the United States.
    It should be noted that immigration point systems have been 
considered and rejected by Congress as far back as 1981 and 
again in the late 1980's, even after lengthy hearings and 
debate. Have things changed since the 1980's? Are there new 
facts to be considered? New issues? These are all questions I 
will have for our witnesses today.
    I very much look forward to the objective descriptions of 
point systems used by Australia, Canada, New Zealand and 
Britain, presented by the Library of Congress. They will 
provide the background we need to conduct our own analysis of 
point systems and allow us to compare them to the current 
immigration system. And, as pointed out by the Library, they 
are not allowed to take a position on these items, only to 
provide technical information.
    I look forward to expert opinions on point systems from 
witnesses who have studied, practiced and/or advocated for 
point systems and, in some cases, compared them to the current 
U.S. System. With today's overview and analysis, I hope we can 
reach a conclusion on whether the U.S. should also turn to an 
immigration point system while moving away from a preference 
system built upon family ties, economic need, and humanitarian 
concerns.
    So thank you again to our distinguished witnesses for being 
here today to help us sort through what is a complex and very 
important issue; and I would now recognize our distinguished 
Ranking minority Member, Congressman Steve King, for his 
opening statement.
    [The prepared statement of Ms. Lofgren follows:]

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law

    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's sixth 
hearing on comprehensive immigration reform.
    In our first five hearings, we examined the need for comprehensive 
immigration to secure our borders, to address economic and demographic 
concerns, and for historical reasons. We have examined immigration 
reform in 1986 and 1996 in an effort to avoid the mistakes of the past. 
Last week we considered the problems with and proposed solutions for 
our current employment and worksite verification system.
    Today we are turning our attention to immigration point systems. 
You might have noticed some talk over the past couple of months about 
selecting immigrants using what's known as a ``point system,'' such as 
those used by Canada and Australia. Some have suggested replacing many 
parts of our current immigration law with a point system.
    In the United States, we have three overarching criteria by which 
we select immigrants--family ties, economic need, and international 
humanitarian obligations and priorities.
    We have woven these principles into our immigration preference 
system because they are woven into the fabric of our society.
    Whatever our process, we must remain true to these cherished 
principles of American society. The question is--can a ``point system'' 
capture these principles and help us implement them in practice?
    I look forward to the testimony today to help us learn more about 
point systems so that we may determine whether it is right for the 
United States.
    It should be noted that immigration point systems have been 
considered and rejected by Congress as far back as 1981 and again in 
the late 1980's, even after lengthy hearings and debate.
    Have things changed since the 1980's? Are there new facts to be 
considered? New issues?
    These are all questions I will have for our witnesses today. I very 
much look forward to the objective descriptions of point systems used 
by Australia, Canada, New Zealand, and Britain, presented by the 
Library of Congress. This will provide the background we need to 
conduct our own analysis of point systems and allow us to compare them 
to the current U.S. immigration system.
    I also look forward to expert opinions on point systems from 
witnesses who have studied, practiced and/or advocated for point 
systems and in some cases compared them to the current U.S. system.
    With today's overview and analysis, I hope to reach a conclusion on 
whether the U.S. should also turn to an immigration point system while 
moving away from a preference system built upon family ties, economic 
need, and humanitarian concerns.
    Thank you again to our distinguished witnesses for being here today 
to help us sort through what is a complex and very important issue.

    Mr. King. Thank you, Madam Chair; and thanks for holding 
this hearing. I'm glad the Immigration Subcommittee is taking 
an aggressive approach to the hearings on the complex issue of 
comprehensive immigration reform.
    As you all know, this subject is like a labyrinth. One 
issue leads to another, which leads yet to another. It's 
difficult to find the end. So I look forward to many more 
hearings in order to flesh out the topics involved with any 
comprehensive immigration reform bill.
    Today's topic has a long pedigree. In fact, the full 
Committee Ranking Member, Mr. Smith of Texas, explored 
immigration point systems when he chaired the Immigration 
Subcommittee in the late 1990's. I'm pleased the point systems 
are being discussed as an option as we work to seek an 
immigration system that benefits 21st century America.
    The most important concern when discussing any changes to 
U.S. immigration policy should be what is in America's national 
interest. Unfortunately, many people seem to have the best 
interest of other nations and other citizens in mind.
    So a system that requires foreign nationals be allocated 
points for certain skills and attributes seems like a promising 
idea. In fact, in recent years, democratic industrialized 
countries around the world have been instituting immigration 
point systems. In your remarks, you mentioned those of Canada 
and the skills that they identify; and one of the things that 
was interesting is the emphasis that Canada put on language 
skills, including French and English, their two official 
languages.
    And Australia also has a point system and identifies a 
skilled work force, language proficiency; and also there's the 
focus on age and particularly youth, people who have years to 
contribute to the economy, rather than just a few years to tap 
into the Social Security benefits.
    The United Kingdom as well. One of the things that I would 
like to point out that caught my attention would be they own a 
system that will give the country a, quote--and this is Liam 
Byrne, the United Kingdom Immigration Minister. They want a 
system that will give the country, quote, the best way of 
letting in only those people who have something to offer 
Britain, closed quote.
    The U.K. System requires a potential immigrant to get at 
least 80 points based on age, aptitude and experience, et 
cetera. I looked through these lists, and they are very high 
standards; and to the extent that, once you get past a certain 
age, it's really a detriment to try to apply and be accepted 
through these systems and to put that in an economic equation 
and define that.
    But these kind of point systems that focus on the social 
aspects and the family reunification plans seem to work as a 
detriment to our economic interests; and I'm interested in 
promoting an immigration policy that enhances the economic, the 
social and the cultural well-being of the United States of 
America. I think that is an important principle for us to 
adhere to.
    I look forward to the testimony and very much welcome 
Senator Sessions from Alabama and appreciate the fact that he's 
here today. And I yield back the balance of my time, Madam 
Chair.
    Ms. Lofgren. Thank you, Mr. King.
    Mr. Conyers is apparently on his way, and so we will 
reserve his opening statement. And if Mr. Smith arrives, of 
course, we will also reserve his opening statement.
    In the interest of proceeding through our witnesses and 
mindful of their schedules, I would ask that other Members who 
arrive submit their opening statements for the record. Without 
objection, all opening statements will be placed into the 
record; and, without objection, the Chair is authorized to 
declare a recess of the hearing at any time.
    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

    Today, we examine the notion of a ``point system'' as a possible 
feature of immigration reform. This system attempts to quantify the 
skills of potential immigrants in comparison to the perceived need of 
the admitting nation.
    Other English-speaking countries have used point systems to decide 
who may immigrate. In the United States, on the other hand, our 
employment and family-based immigration systems respond not only to 
economic needs, but to humanitarian needs as well.
    At least three areas of possible concern leap out when looking at a 
point system.
    First, a point system could result in an inflexible bureaucratic 
nightmare. Under this system, occupations are rated and given points on 
the basis of the Government's prediction of what jobs are needed. 
Frankly, this starts to a lot like the inflexible systems used by HMOs 
that take medical decisions away from patients and put them in the 
hands of bureaucrats.
    In the United States, we should trust employers to determine what 
their needs are based on the changing market, rather than publishing 
and ranking every category of job and assigning them priority. Such an 
expansion of the Labor Department's responsibility to classify and rank 
jobs--as contemplated by this proposal--would create a large and 
expensive bureaucracy while we would still not have enough labor 
inspectors out in the field to prevent worker exploitation.
    Second, it appears this system has not worked well in Canada. 
People admitted under this program in Canada often fail to obtain 
employment in their areas of expertise. An immigration system that 
rewards family ties or employer sponsorship seems to make 
underemployment or isolation less likely.
    Third, a point system could foster discrimination and return us to 
the old days in which Northern Europeans were welcomed but African, 
Asians and Latin Americans were told that they ``need not apply.'' If a 
point system is just a method of selecting the most educated, 
disparities in education systems will leave out much of the developing 
world. English language requirements can have a discriminatory effect. 
Instead of this approach, we should be encouraging talented immigrants 
to come to our shores and help them learn English here, which could 
then serve as a threshold for a more permanent stay.
    Breaking the stranglehold of the old quota system has greatly 
benefitted our Nation. Increased numbers of immigrants from the 
developing world and their entrepreneurial spirit contributed to 
American's economic growth. Some of those people came with developed 
skills. Others built their skills in American universities. But many 
came with just a dream and a stubborn will to succeed.
    A point system that results in de facto exclusion is inconsistent 
with our future needs and our lasting values. The country has always 
thrived on the experience and determination of such immigrants. A 
controlled, orderly, and fair system can harness this energy for the 
benefit of all.
    I welcome all of our distinguished panelists and I look very much 
forward to their testimony.

    [The prepared statement of Ms. Jackson Lee follows:]

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law

    Today marks the fifth hearing in a series of hearings dealing with 
comprehensive immigration reform. This subcommittee previously dealt 
with the shortfalls of the 1986 and 1996 immigration reforms, and most 
recently the difficulty that employers encountered when they attempted 
to verify that potential foreign employees have work authorization. At 
last Thursday's hearing on April 26, 2007 we looked at ways to improve 
the employment verification system.
    Any honest discussion about comprehensive immigration reform must 
include the methods utilized by other nations around the globe. This 
hearing will focus on a point system, like the ones used by our friends 
in the United Kingdom, Australia, and Canada. Point systems have been 
considered in the past by both the House and the Senate, however a 
point system has consistently been rejected.
    Currently the United States has an immigration preference system 
that is broken down into two categories, family based immigration and 
employment based immigration.

                        FAMILY BASED IMMIGRATION

    The opportunity to migrate to the United States based on familial 
status depends on four factors. First, the immigration status of the 
sponsoring relative, (i.e.--is the sponsor a United States citizen, or 
a lawful permanent resident?). Second, what is the nature of the 
relationship? Obviously the closer the relationship the better. Third, 
what is the migrant's country of chargeability, or where is the migrant 
from? Fourth, what is the existing and anticipated backlog (if any) of 
approved aliens in the relevant category for the country of 
chargeability. Certain family based categories are never subject to 
backlog because there are never subject to limitations. Those 
categories are 1) immediate relatives, 2) returning U.S. permanent 
residents, and 3) applicants for reacquisition of citizenship, 4) 
refugees and asylees, 5) aliens obtaining registry, 6) children born to 
immediate relatives after visa issuance, and 7) children born to 
permanent residents while temporarily abroad.

              FAMILY BASED IMMIGRATION SUBJECT TO BACKLOGS

    The Immigration and Nationality Act (INA) allows for 480,000 family 
preference entrants per year, however only 226,000 are allowed. The 
order of preference is as follows:
    First preference goes to unmarried sons and daughters of U.S. 
citizens. Second preference goes to spouses, and minor children of 
lawful permanent residents. Also, unmarried sons and daughters of 
lawful permanent residents. Third preference goes to married sons and 
daughters of U.S. citizens, and their spouses and children. Fourth 
preference goes to brothers and sisters of United States citizens, and 
their spouses and children, provided the U.S. citizens are at least 21 
years of age. The attempt to keep families together in theory is good, 
however in practice we all know that this is not the case. The number 
of applicants is great, and our resources are few.

                      EMPLOYMENT BASED IMMIGRATION

    Employment based immigration is broken down into five tiers: 1) 
Priority workers, 2) Advanced Degree Professionals and Exceptional 
Ability Aliens, 3) Skilled Workers, Professionals and Other Workers, 4) 
``Special immigrants,'' including religious workers, and 5) Employment 
creation immigrants.
    The first tier applies to individuals with ``extraordinary 
ability'' in the sciences, arts, education, business, or athletics; 
outstanding professors and researchers; certain multinational 
executives and managers; the spouse and child of the aforementioned.
    The second tier applies to individuals holding advanced degrees in 
their profession, or employees with exceptional ability whose services 
are sought by an employer in the United States.
    The third tier applies to skilled workers, and professionals with 
baccalaureate degrees. The fourth tier applies to special immigrants 
like religious workers. The final tier applies to migrants who have an 
entreprenureial spirit and have invested at least 1 million, but at 
times as low as $500,000 in ``targeted employment areas.'' They must 
also create no less than ten jobs for American citizens.
    This is the current method in the United States. Quite frankly 
members of the tech industry will tell you that there are not enough 
visas to meet our needs. A practical problem is the fact that the 
aliens immediate family members (i.e.--spouse and children) count 
against the number of employment based visas that are issued. Thus the 
problem may not be in the system, but rather how the system works. 
Nevertheless, an examination of our international neighbors methods is 
worth looking at.

                 UNITED KINGDOM, CANADA, AND AUSTRALIA

    All three nations utilize a points system to admit skilled workers. 
In fact skilled workers represent the majority of immigrants in that 
country, whereas the majority of immigrants to the United States are 
unskilled workers. Generally speaking, points are awarded on the basis 
of education, work experience, language proficiency, arranged 
employment, achievement in the applicant's field, age, and occupational 
demand. The UK has made a conscious effort to seek out individuals with 
MBA's, and Canada's goal is to recruit a majority of highly skilled 
immigrants every year.
    In conclusion a point system could help, but I advise that any 
point system we implement be uniform, and practical because in the end 
the United States is the winner.

    Ms. Lofgren. We have three distinguished panels of 
witnesses here today to help us consider the important issues 
before us.
    I would like first like to introduce Senator Jeff Sessions 
of Alabama, a Member of the Senate's Judiciary Committee and 
the Subcommittee on Immigration, Refugees, and Border Security. 
Prior to his election to the Senate in 1996, Senator Sessions 
served as both Alabama's Attorney General and the United States 
Attorney for Alabama's Southern District. He holds his 
bachelor's degree from Huntington College in Montgomery and his 
law degree from the University of Alabama.
    Welcome, Senator Sessions, to the House Immigration 
Subcommittee.
    We have--unlike the Senate, we have a 5-minute rule here, 
but we will be very generous in the enforcement of such with 
our Senate colleague. But we would ask that you summarize your 
testimony so that we might have an opportunity for questions. 
Thank you so much for coming over to our side of the Capitol.

           TESTIMONY OF THE HONORABLE JEFF SESSIONS, 
            A U.S. SENATOR FROM THE STATE OF ALABAMA

    Mr. Sessions. Thank you, Madam Chairman; and you are wise 
to have a 5-minute rule, especially when Senators show up. We 
are used to talking on too much.
    Maybe I can just sum up, and I'll offer my full statement 
for the record, how I see this question and how I believe we 
should consider it. And I want to thank you and Mr. King for 
both of you inviting me, because I do believe we are talking 
about something that is very important.
    I believe it was Professor Borjas in his book Heaven's Door 
that said, in effect, if your goal for immigration is to serve 
the national interest, let me know, I can help you achieve 
that. Another witness at one of our Committees said almost the 
same thing.
    Now, Mr. King said immigration should serve, according to 
the Brits and, in his view, the United States, the national 
interest. So I think that is a given.
    Second, we had in 2000 11 million people apply for the 
50,000 lottery slots. Now that gives you some indication of the 
truth, which is we can't accept everybody that wants to come to 
America. It is a door, Heaven's Door, as Professor Borjas, 
himself a Cuban refugee, now at the Kennedy School at Harvard, 
says about the subject.
    So if we can't accept everybody, then we have to ask 
ourselves, how should we deal and decide among those who would 
like to come? What is a fair basis? What is a just basis? What 
is a basis consistent with our heritage? It's a different kind 
of world than we've had in the past with these large numbers 
out there.
    So I guess first I would say that skilled--and I think 
you'll hear from the panels as we go along that immigrants with 
higher education levels and higher skills enjoy and benefit 
from the American experience more than those who do not. 
Likewise, people who come to our country with even some 
education, but particularly those with advanced degrees and 
higher education and higher skills, pay far more in taxes to 
the Government than they will ever take out from the 
Government. So those are important factors if we consider what 
is in our national interest.
    Some have suggested that we can do immigration in large 
numbers, even unskilled, and that that will solve our Medicare 
and our Social Security long-term systemic problems. I believe 
you'll be hearing from Mr. Rector at the Heritage Foundation, 
and his numbers conclude just the opposite. In fact, they will 
make both of those unsound systems even more unsound.
    But if the immigrants who come are high skilled, who are 
likely to be high income, who pay large amounts in taxes, that 
could in fact positively affect that. And since it's a zero sum 
gain when an individual becomes a citizen and has a right to 
bring their elderly parents, for example, we have to remember 
that they are denying some young person somewhere in the world 
who maybe has worked hard to learn English, worked hard and 
gotten some advanced degree. They don't have a chance unless 
they have a relative.
    I think about two young people that might be living in 
Honduras. One is a valedictorian who took English in high 
school, took advantage of radio or television to learn English 
and speak it well, maybe has a year or so of technical school. 
That individual would have no chance of coming and would be 
competitively at a total disadvantage to a high school dropout 
who happened to be the brother of someone who is a citizen of 
the United States. So this is the system we have today.
    Among those two, who should be the one that would have the 
best opportunity to succeed and would have the best opportunity 
to contribute to the American system? So I think that is a 
factor as we evaluate this.
    I am also concerned that by having a disproportionate 
number of low-wage, low-skilled workers come in, that, in fact, 
wages for lower-skilled workers have not increased and, in 
fact, in some areas have decreased factored for inflation.
    So it's clear you bring in--in my area of the country, if 
you flooded the country with a lot of cotton, our farmers 
wouldn't hesitate to complain that their cotton prices will go 
down because they have more foreign competition. The same is 
true with labor. Extensive large amounts of low-skilled, low-
wage labor does pull down the wage rates of United States 
workers; and, in fact, Professor Borjas and others have made 
that point quite clear in testimony before the Senate.
    So, Madam Chairman, I thank you for the opportunity to be 
here. In the course of this, I met the Canadian leader of the 
point system. We've studied the Australian system. We believe 
it has much to commend it. In fact, it can help us in 
extraordinary ways to fairly select from those millions that 
want to come in ways that will benefit the United States and 
provide the best opportunity for those to succeed here.
    I'm glad that you're looking at it. It makes so much common 
sense to me. I believe the American people need to understand 
that you will still be able to bring wives and children when we 
say chain migration should be curtailed. But the elderly 
parents or brothers and sisters would not get a huge advantage 
as they have today to come in just because they have a relative 
here.
    My time is up. Thank you very much.
    Ms. Lofgren. Thank you very much, Senator, and also for 
being so unsenatorial like in your terseness. We appreciate it.
    Mr. Sessions. I failed to do one thing and put a chart up 
for you. If you will give me 1 minute to do that.
    Ms. Lofgren. Of course.
    Mr. Sessions. This shows what the United States system 
does. We give out 1.1 million green cards. According to the 
numbers, we have 58 percent of those basically family based. 
That means they did not have to establish any skill to come 
into the country.
    Canada with their point system--and, in fact, the 
Parliament in Canada directed the Immigration Department to 
achieve a 60 percent merit-based, and they let them do it how 
they chose, and they have about a 60 percent skill-based entry. 
And Australia, likewise, has 62 percent skill-based entry.
    Canada definitely kept the humanitarian refugee slots. 
Australia has a little less refugee slots. So I would contend 
that we can keep our humanitarian slots, we can keep spouses 
and children slots, but that we ought to make a major movement 
to identify those people that can be so beneficial to our 
economy and give them priority over those with less potential.
    Ms. Lofgren. Do you have another slide?
    Mr. Sessions. No, that is it.
    Ms. Lofgren. Okay. Thank you very, very much.
    [The prepared statement of Mr. Sessions follows:]

          Prepared Statement of the Honorable Jeff Sessions, 
                a U.S. Senator from the State of Alabama

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. In reading through the testimony that will be 
offered here today, one of the things that struck me was how 
you establish the employment side. We are just looking at the 
point system here today, and it's fine to look at it. Most of 
the other countries that use it don't use the point system for 
the family. They're just looking for the economic-based 
employment. And in some of those countries underemployment or 
unemployment has actually been a product of the point system, 
because the people they've admitted based on their education 
may or may not have a job; they may or may not have the 
credentials. And it struck me that the marketplace might be a 
better sorter of who's going to contribute to our economy than 
just a Government point system. What's your thoughts on that, 
Senator?
    Mr. Sessions. I think the economy does play a big role. But 
in certain areas the demand for low-skilled workers could be 
very--low-wage workers could be very, very, very substantial; 
and that may not be in the best national interest.
    So I think Canada, for example, gives skill points for 
bricklayers. It gives skill points for drywall workers. So you 
can give points for skills for something less than college. 
Although in the long run I think statistics will show that a 
person with education can adjust to the flow, they're more 
flexible, they're more able to adjust and land on their feet, 
even if for a temporary period they have difficulties. So I 
would tend to not diminish the value of education, but I do 
think you could set a skill base set that included more than 
just academic skills.
    Ms. Lofgren. Well, I agree with that. We do have in our 
current system, for extraordinary individuals, there's no 
requirement that they have an offer of employment. We just make 
the assumption that at that level they're going to be good for 
the country.
    But, for example, in Canada you might have someone with an 
M.O., but because of credentialing they're driving a cab 
instead. They haven't been licensed to practice. And having a 
job would make sure the skilled people, not the extraordinary 
people, were actually able to contribute in a way that was 
envisioned.
    Mr. Sessions. Australia does emphasize that occupational 
connection much more, and points are given for a guaranteed job 
in an area that they've certified and needs work. In fact, if--
some districts of Canada are overpopulated, and in Australia I 
think they give more points if you are going into an area that 
needs more workers.
    Ms. Lofgren. New Zealand does that as well.
    In terms of the under-Ph.D.-level skill level, let's say--I 
mean, there's skilled trades, there's locksmiths, plumbers. 
Those are jobs where really there's a skill set that is 
required, but it may not be book learning in the same way. 
Australia gives points for that and seeks them out. Do you 
envision that being part of a system that would serve American 
interests as well?
    Mr. Sessions. I do.
    Madam Chairman, it's a little bit--I'm a little ambivalent 
about one thing. Canada just simply told the Immigration 
Department to do it. Our history has been for Congress to write 
the law and set the--even down to minute numbers. Perhaps we 
need to look for some sort of balance where the Labor 
Department or the Commerce Department rates certain industries 
as needing more workers and skills are needed and adjust those, 
have the flexibility to adjust them on a year-to-year basis. 
Probably this Congress will want to be more involved than they 
have been in Canada. But, likewise, I do think we should give 
some flexibility to the relevant department to decide national 
needs.
    Ms. Lofgren. It's interesting that you say that, because 
that is something I've observed as well. I mean, the Congress 
deciding where the shortage is doesn't really work. We don't 
meet often enough, and it just hasn't worked out. But Schedule 
A, which is supposed to identify the shortages in the 
Department of Labor, that hasn't been updated either. That is 
still the case with some of the medical professions, but we had 
some extreme shortages, and they never really updated that. So 
I'm wondering if we should look at--if we are going to delegate 
that with some guidelines, maybe we need to look at some new 
criteria to make that happen? I'm wondering if you've given 
some thought to that.
    Mr. Sessions. I have not given detailed thought to it, but 
that is my general impression.
    I would mention one thing. I think the talking points that 
the Administration got to the press, that they've put out 
there, one thing that we shouldn't forget in this mix and that 
is it creates what I expect and hope would be a real temporary 
worker program. So this could be agricultural workers, this 
could be other low-skilled workers who come for, in my view, a 
year or less without their family and can come back and forth 
as many times as they would like, something like that. So this 
would help--but they wouldn't be shut out of applying for 
citizenship.
    So if they wanted to become a citizen, they could be coming 
for 5 years, maybe getting a junior college degree or college 
degree. Then they could apply for the permanent track also and 
perhaps have a chance to come on in as a citizen if they would 
be meritorious.
    Ms. Lofgren. I know my time is up, but if I can just follow 
up on that point. One of the things we've thought about is--I 
mean, there are many issues here. One is our labor needs. One 
is, if you take a look at our demographic needs, our birth rate 
is not sufficient to meet our job production rate, just as 
Western Europe and Russia and other developed economies--well, 
I don't know how developed Russia is, but certainly Western 
Europe and Japan are facing that same problem.
    So we've thought about, rather than trying to micromanage 
it, use market forces to let people make some determinations 
themselves, since the history of migration in the Western 
Hemisphere is largely circular, not permanent. But rather than 
the U.S. Government playing Big Brother, you just let the 
market play more of a role than we've done in the past. It 
sounds like you've given some thought to that.
    Mr. Sessions. I think something like that can work. I just 
believe that the bill as written in the Senate last year was 
defective in that the temporary guest worker program allowed an 
individual to come, to bring their family, their wife and 
children, for 3 years and, if they were still working, get an 
automatic 3 years and automatic 3 years on down the line. And, 
in effect, after a decade or so, they're entrenched here; and 
if that job is not here, then we have an illegal person that we 
are not able to--morally, it's just very painful to try to 
remove someone like that.
    So I think we are fooling ourselves if we go that route. We 
should have a genuine temporary worker program that is 
temporary and a permanent system of immigration that is based 
on merit and skill.
    Ms. Lofgren. My time has expired, and I would like to 
recognize the Ranking Member for his 5 minutes plus.
    Mr. King. Thank you, Madam Chair.
    Senator Sessions, looking over your chart here and the 
United States showing 22 percent in the skill employment based 
in the blue, and my notes show that that's about a little short 
of 250,000 people annually. But 54 percent of those were used 
for spouses and dependent children. So I make a point that a 
portion of those skill based, by my statistics, and actually 
also a majority of them were also family reunification type of 
visas, and so that 22 percent gets slipped down to 10 percent. 
Would you concede that point or criticize it?
    Mr. Sessions. You know, I actually would.
    One of the quotes I have in my handout, I believe, is it 
Professor Chiswick or one of the professors that testified, his 
number was 7 percent actually on skill-based. This is a number 
that has sort of been used. But it does include, I believe, 
children and spouses. Certainly children wouldn't likely be 
skilled, and spouses may or may not be. So I think that 
overstates the number.
    Mr. King. So when I look at that chart, I slice that piece 
in half in my mind's eye; and you add that number up then to 11 
or maybe even another 17 percent altogether.
    Mr. Sessions. Mr. King, I think the reason we use that 
number is because that is the way Canada and Australia do, so 
we are comparing apples to apples when we are looking at the 
charts. But, in truth, many of those in that 22 percent are 
likely to be unskilled.
    Mr. King. If I will take the 7 percent of Professor 
Chiswick that is in your document, that takes us to 75 percent 
of that chart would be blue. So I just wanted to emphasize that 
point. I appreciate the position you've taken on this.
    Of the categories that are most often used, and among them 
are education, job skills and language skills, et cetera, what 
would you rank as the most important criteria?
    Mr. Sessions. I think since we have millions each year that 
want to come here that we are not able to accept, I think it 
would be perfectly responsible and reasonable to ask that they 
have language skills before they come. Because English is an 
international language. Almost any country in the world you 
could have developed those skills. So I think that is very 
important.
    But I believe the statistics do show that even with a few 
years of college a person is most likely to be quite successful 
in the United States. So education seems to--now, if you take a 
specific skill, that could be very valuable, too. But then 
again a decade from now and the technology changes and that 
person's skills are not so much needed.
    Mr. King. As I look at these charts from the various 
countries and look at the categories that are there, I didn't 
know what I was going to see. I expected something fairly basic 
that I'm looking at here. I expected something perhaps more 
sophisticated. Maybe behind that there are the other kind of 
spreadsheets that would take in some subfactors, so to speak.
    But I would wonder if you've given any thought to the idea 
that we could put a cap on our overall immigration and say this 
would be a fixed number for a year, if we can agree on what 
that number is, no matter what the circumstances, we not exceed 
that, and then, when we turn that slice of blue pie into 
something significantly bigger than that, be able to define 
that to the extent that we could pick the profile of those who 
would be a net contributor to our economy and also pay a little 
consideration to their ability to fit into the culture in some 
way. Would you think that we could be sophisticated enough that 
we could give a score system in that and be able to make it a 
net positive and identify it scientifically and use that, 
Congress set the cap rather than business make the demand, and 
then the highest priority would be those who contribute the 
most?
    Mr. Sessions. Yes, yes, and I guess with some caution. I do 
believe that we should spend some time as a Congress asking 
those more detailed questions, and I believe we can draft a 
legislation that includes an emphasis on areas that are likely 
to be successful.
    I also am of the belief that immigration is ultimately in 
the national interest. Therefore, just to say a willing worker 
and a willing employer, as the President has said a number of 
times, does not strike me as good policy. In other words, we 
would almost be saying the Government has no interest. As long 
as there's an employer and employee, they get to decide. And 
that is sort of what's been happening through illegality and 
other things. So I don't think that is acceptable.
    But I do believe we could write some standards, and we 
could also give governmental agencies a cap number and allow 
them to adjust in there for changing economic circumstances or 
historical changes in the economy.
    Mr. King. Thank you, Senator.
    I want to make sure that I'm clear on how these pieces fit 
in this jigsaw puzzle. I'll say there are a lot of 
hypotheticals in immigration policy, and that is one of the 
reasons it's very complicated. But, as I understand this, you 
would look at the unskilled labor, an acknowledgement that we 
need some of that in certain areas, and those would be the 
temporary workers, but they wouldn't be precluded from working 
to get their education and skills up to where they could 
qualify to be a net benefit to society; and, while all that is 
going on, focus your real immigration that had a path to 
citizenship on those that could make a distribution to the 
economy?
    Mr. Sessions. That is a good summary of it, Mr. King. I 
think that would be good for America. I think that is something 
other nations have proven and like what they're doing, nations 
that have similar economies to ours. So I think that is the way 
we should go.
    I know it's complicated. I've been very disappointed, 
actually, and somewhat surprised we've had so little discussion 
of this in recent years. In fact, a bill that hit the Senate 
floor last year had no reference to these ideas at all.
    I was not able to get a point-based hearing in Judiciary, 
but I'm on the Health, Education, Labor and Pensions Committee, 
and we did have one hearing in that Committee on the point 
system, which I thought was good because we had some excellent 
witnesses. So I think we should pursue this. I think we have 
the possibility of doing something we could be very proud of.
    Mr. King. Senator, I want to thank you for your testimony 
today. You've given me some things to think about, too. And 
that is what these hearings are about, to help rearrange our 
thought process so we can come to a conclusion that is good for 
the country. Thank you very much.
    Thank you, Madam Chair.
    Ms. Lofgren. Thank you, Mr. King.
    Senator, are you able to stay for additional questions?
    Mr. Sessions. I could.
    Ms. Lofgren. Then I would recognize Mr. Delahunt from 
Massachusetts.
    Mr. Delahunt. Senator, welcome to the House of Commons.
    Mr. Sessions. It's good to be here. I almost said among the 
commoners, but I knew better.
    Mr. Delahunt. We respect and appreciate the House of Lords. 
And I apologize. I had another hearing going on, and I'm just 
walking in at the tail end.
    You know, the skill component of a point system, I guess 
much would depend on the eye of the beholder in terms of what 
constitutes skills. What's your definition?
    Mr. Sessions. Well, we know education makes a difference. 
We know language skills make a difference. I note that the 
Canadian system gives skill points for bricklayers. It gives 
skill points for drywall workers. So I think as we analyze our 
economy that those could be given skill points, too.
    Mr. Delahunt. So the concept of skill, however, for 
determination, the definition of skill would depend on the 
economic needs of the country at a particular point in time?
    Mr. Sessions. I think so. To me, you want to select the 
people who are most likely to benefit from this great American 
experience, the people who are likely to flourish the best; and 
how you do that is very difficult. My inclination, as I said 
with the Chairman, would be that perhaps Congress, since we are 
in the habit of micromanaging immigration more than they do in 
Canada, we might have some basic standards that we set. But I 
believe we should give an independent agency, our Cabinet, 
Commerce, Labor, some input in deciding how many numbers you 
may need in bricklaying and how many you may need in computer 
workers.
    Mr. Delahunt. But this wouldn't--you know, this would not 
exclude, for example, refugees or asylum seekers?
    Mr. Sessions. No. My view would be, as Canada and Australia 
have--the green represents 16 percent in Canada is 
humanitarian, 9 percent in Australia, so we would set a number 
probably consistent with our 16 percent heritage of 
humanitarian.
    Mr. Delahunt. That is all the questions I have. Thank you, 
Senator.
    Ms. Lofgren. Thank you.
    Mr. Ellison.
    Mr. Ellison. Good afternoon, Senator. How are you?
    Just a few questions. I notice that on the pie charts you 
have there that the family-based piece is a large proportion of 
American's immigration. The other ones are much smaller. How 
would the fourteenth amendment's language saying that people 
are citizens in the States in which they are born, essentially 
making a child born to immigrants a citizen, how would that 
impact a system in which we de-emphasize family-based 
decisionmaking in immigration? Do you think it would?
    First of all, do you think it would; and, if so, how?
    Mr. Sessions. Well, I've tried to read the case law on 
being born in America. It's maybe not conclusive but appears to 
suggest that birth does give you citizenship.
    On family, you don't have a constitutional right to come 
here. And on the family question I believe that spouses and 
children should be able to come. But the question is aging 
parents or brothers and sisters, and there's a zero sum gain, 
Congressman. So for every, say, aging parent that comes, that 
is a slot denied to the young valedictorian in Honduras who 
speaks English but doesn't have a relative here.
    Mr. Ellison. Thank you, Senator.
    I guess a part of what was inside of my question was what 
is this family--58 percent family made up of? Is it siblings, 
as you pointed out, or aging parents? What is the driver behind 
that?
    Mr. Sessions. That 58 percent of family includes--and 
correct me if I'm wrong, counsel--does that include spouses and 
children or just brothers, sisters and parents?
    Voice. All of them.
    Mr. Sessions. It includes all of them.
    Mr. Ellison. Does your able counsel have any idea on what 
percentage is what in terms of families?
    Mr. Sessions. We do have the numbers. I've seen somebody 
float the numbers.
    In other words, if you eliminated 50,000, the 4 percent 
lottery slots, and you eliminated the non-nuclear family, you 
would free up quite a number of slots. That would move us 
probably above 50 percent with just those changes, above 50 
percent being skill-based.
    Mr. Ellison. Okay. Well, I'm sorry I missed your testimony. 
There's a lot of things going on around here.
    But another question is I think earlier in your testimony--
I could be wrong, maybe I got this wrong, but it sounded like 
you said that part of the criteria we should apply in 
immigration reform is fairly selecting from immigrants who 
come. Do you remember using that terminology?
    Mr. Sessions. Yes. I believe that since everyone is not 
allowed to come--and we had 11 million people in 2000 apply for 
the 50,000 lottery slots; it gives you some indication of the 
number--that we should have an objective, fair system to select 
from those who would want to apply to come here.
    Mr. Ellison. Would you mind elaborating on how you would 
define fair?
    Mr. Sessions. Well, I think it would be fair that we 
consider what is in our national interest first.
    Second, you would ask, is this person--does this person 
possess skills that are likely to allow them to flourish in 
America and enjoy the greatest benefits from coming to America?
    I think we ought to also consider the impact it might have 
on wages of hard-working Americans who may be overcompeted by a 
flood of labor in their particular skill set.
    So all those would be factors that I think we should 
consider.
    Mr. Ellison. Would you consider fair to also include 
reaching for diversity of nations that people could come from? 
Would your calculus of fair also mean, for example, that if we 
are going to get a lot of people from, say, Liechtenstein, 
maybe we should also have some people come from Lesotho? Would 
that kind of fairness enter into your calculation?
    Mr. Sessions. It would be difficult to start trying that. 
We used to do that, give preference to nations who had a 
historic flow of immigrants here, as I understand it, maybe 
before the '60 bill or somewhere along there. But I think our 
view now is to be open to the whole world and allow people an 
equal chance to apply. But, as we are, it's recent relatives, 
people that are alive. Just because your grandfather came into 
the United States and now deceased, it wouldn't help you at 
all. But if you had a brother under the current law, that would 
help you. So it accelerates itself to some degree, and the 
family connection does.
    Mr. Ellison. Okay. Thank you.
    Ms. Lofgren. Does the gentleman yield back?
    I would just note before calling on my colleague, Ms. 
Waters, that if you add up the 50,000 for the lottery and the 
65,000 and 23,000 for the other two categories, it's about 
138,000. So that would actually not put us in the other 50 
percent.
    Mr. Sessions. How far would that go?
    Ms. Lofgren. Well, I went to law school so I wouldn't have 
to do math in my head.
    Mr. Sessions. And, also, we've got to look at the overall 
number. Most of the legislation we are seeing has a big 
increase, not just comprehensive reform on who comes but also 
increases. So I think the increases might also, if that occurs, 
should be considered.
    Ms. Lofgren. We are going to have another hearing on that 
whole subject.
    Mr. Sessions. I think that is a fundamental question: How 
many?
    Ms. Lofgren. That is a very important question.
    Ms. Waters, you're recognized for 5 minutes.
    Ms. Waters. Thank you very much, Madam Chairwoman; and I 
would like to thank the Senator for his presence here.
    I came here today focused on several conversations that I 
had this weekend as I traveled around. All of the conversations 
that are being brought to my attention, and including that 
which I'm seeing in the news media, happens to be about the 
family and separation of the family; and I'm increasingly 
getting worried about this.
    There was one presentation on one of the channels where a 
reporter interviewed a little boy and asked him about what kind 
of choice was he going to make, was he going to stay here in 
the United States or was he going to be back with his mother, 
who is going to be deported? What would he like to do? And I 
thought it was just such an unfair question to ask a 7- or 8-
year-old boy, and I'm worried about family separation and 
division.
    I come from a history of people who understand the 
devastation of family separation. Slaves were separated, 
children were sold off from their parents, sent to different 
parts of the world, and on and on and on. So it's something 
that many African Americans pay very close attention to and 
don't want to be part of separating mothers and fathers from 
their children and even grandmothers and grandfathers.
    So you may have talked about this already and I didn't hear 
it, but I'm wondering what your response is to this potentially 
devastating occurrence as we look at immigration reform.
    Mr. Sessions. I think you raise an important question. We 
did discuss that some earlier.
    In my view, a person allowed into our country under our 
system like Canada's, their system allows the wife or husband 
and children to come. We might have a circumstance that I think 
you may be talking about where a child is born here as a 
citizen and the mother may not be. I think we'll just have to 
wrestle with that. To me, that is not a huge number. We should 
make a just decision about what's fair and just under those 
circumstances. I don't think that is a big enough number to put 
us in a position where we couldn't reach an agreement on how 
that ought to be handled.
    Ms. Waters. In defining what--the family that could be 
considered to stay, based on the child or children that are 
born here, whether that would include mother, father and others 
perhaps?
    Mr. Sessions. Right. I think that is just a question we'll 
have to wrestle with.
    There are some circumstances where a person deliberately 
came into the country illegally to have a child here. Maybe you 
would not want to reward that. But somebody who has been here 
for a number of years and has a child, you may want to have a 
different standard and say they can stay with their child. It 
would just something I think we would have to wrestle with.
    Ms. Waters. Thank you.
    I yield to Mr. Delahunt.
    Mr. Delahunt. I have one final question.
    Senator, I appreciated your observation about flexibility 
in terms of economic needs as far as the skill sets are 
concerned. Then I heard you speak about the number, and I think 
that is a key question. What is the number at the end of the 
day?
    When I listen to the demographics of those who are 
demographers--however you say it--demographers, thank you. As 
you extrapolate down the road, you know, our labor force very 
well will mirror what is occurring in Europe now, which is a 
significant decline in terms of population and an inadequate 
labor force. Would you consider a number that would not have to 
come back to Congress for approval time and time again and put 
the Senate and the House through an arduous task of examination 
but allow a built-in flexibility to meet our labor needs?
    For example, I remember President Fox saying by the year 
2020 there will be no more immigration from Mexico because they 
will need by that time the entire number of people that are 
immigrating from Mexico into the United States to meet their 
own economic needs.
    Mr. Sessions. I recall Professor Borjas at Harvard, himself 
a Cuban refugee, his book which is authoritative at the Kennedy 
School----
    Mr. Delahunt. Those are all good credentials.
    Mr. Sessions. Good credentials. I thought you would 
recognize that. He wrote a number of years ago--and this really 
struck me. We had about 1.1 million. He wrote that, in his 
opinion, the economy of the United States would be best served 
with 500,000 a year.
    So I'm not sure what that number ought to be. Most people 
think--you know, the conventional wisdom is, the Wall Street 
Journal, it probably ought to be more than 1.1 million. But 
exactly what that number is, I think we deserve to spend some 
time in Congress--we have a responsibility in Congress to dig 
into it and try to ask that. And I'm glad, Madam Chairman, 
you're going to be able to do that.
    Ms. Lofgren. Mr. Berman of California.
    Are you running out of time?
    Mr. Sessions. I'm running out of a bit of time, but if 
someone has a question or two I would be delighted to try to 
respond.
    Ms. Lofgren. Mr. Berman says he has just one question.
    Mr. Berman. Thank you, Senator.
    If Congress decided to shift the fundamental nature of its 
legal immigration system to a point-based system, essentially 
to expand the blue universe through a point system that 
recognized a lot of different things but put some special 
premium on education and skills and job openings and things 
like that, would you--as part of that--would you be prepared to 
support a comprehensive approach, which also included a way by 
which people who are now in this country out of status, 
illegally, however you want to--bad documents, however you want 
to phrase it, would be able to adjust their status?
    Mr. Sessions. I like the talking points that the President 
and his Cabinet--at least his Cabinet members showed to me as a 
framework that could come close, could get my support, perhaps. 
And it has a real temporary worker program where people come 
temporarily without their families. They could also apply for 
permanent citizenship. It has a permanent citizenship with some 
sort of point system.
    Now, this is just an outline talking points. It has a much 
better enforcement at the border. It has a workplace 
enforcement that could actually work.
    Mr. Berman. Employee verification.
    Mr. Sessions. Employee verification. I believe we can fix 
that. If we tell businesses precisely what to do, they'll 
comply, most of them.
    And then you have the people that are here illegally, and 
it's my view that there has to be some compassionate resolution 
of that and that people who have been here a long time with 
children who are in school, it wouldn't be right to try to 
remove all of those. So we would come up with a humanitarian 
way to deal with that.
    My general view is that persons who got the benefit of that 
legalization should not get every single benefit that goes to 
someone who came legally and waited in line. So, to me, that is 
an outline that could reach a bipartisan consensus.
    But, as I told the reporter a while ago, I do intend to 
read the fine print on whatever they put out, because 
oftentimes the framework sounds good, as you know, Congressman, 
and the fine print doesn't quite get there.
    Mr. Berman. I think that is a hopeful sign for the ability 
of this place to do something this year.
    Mr. Sessions. And, basically, that is what I said in my 
speeches last year as a framework for a settlement. So I can't 
be anything but somewhat pleased at the way the discussion is 
heading this year.
    Ms. Lofgren. Senator, you've been here for an hour. We 
appreciate your generosity of time, and we are looking forward 
to working with you in trying to--you know, we may not see 
things 100 percent, but if we work together in good faith, I'm 
hopeful we can come to a system that works for our country.
    Mr. Sessions. I believe we need reform. The whole system is 
broken, so comprehensive reform is certainly needed, and how we 
get there is the question. Thank you so much.
    Ms. Lofgren. Thank you.
    And I'm sorry, Ms. Jackson Lee, the Senator ran out of time 
before we got to your last question.
    Ms. Lofgren. We are now going to move to our second panel. 
The second panel should come forward.
    I'm pleased to introduce Clare Feikert, the United Kingdom 
Foreign Law Specialist at the Law Library at the U.S. Congress. 
Prior to her work with the Library of Congress, Ms. Feikert 
served as a law clerk for the Head Solicitor of Police at the 
Sherwood Lodge Police Headquarters in England and as a clerk at 
the Center for Democracy and Human Rights here in Washington. 
She holds a bachelor's degree with honors from the University 
of Lincoln in England and an LL.M. in International Legal 
Studies from American University, Washington College of Law.
    We are also pleased to have Stephen Clarke with us, the 
Senior Foreign Law Specialist for the Law Library of Congress. 
Mr. Clarke has conducted research with the Law Library since 
1979 and has guest lectured at Georgetown University Law 
Center, Duke University, and the Center For Legislative 
Exchange in Ottawa. Mr. Clarke earned his bachelor's degree 
from the University of Illinois, his LL.B. from Osgoode Hall 
Law School in Toronto, and LL.M. from Georgetown University Law 
Center.
    And, finally, I would like to welcome Lisa White, the 
Foreign Law Specialist for the Law Library on Australia, New 
Zealand and Pacific common law jurisdictions. Ms. White came to 
the Law Library last year after having practiced law at Deacons 
law firm in Canberra, Australia. Before her practice, Ms. White 
worked for the National Museum of Australia and the Australian 
Department of Defense as a policy advisor. Ms. White graduated 
with a B.A. from the College of Fine Arts and an LL.B. from the 
University of South Wales in Sydney; a graduate diploma in 
legal practice in the College of Law in Sydney; and, finally, 
an LL.M. from the University of Melbourne.
    As you know, your entire written statements will be made 
part of our record; and we would ask each of you to summarize 
your testimony in about 5 minutes.
    We understand that the Library serves as a technical 
resource to us here in Congress. We will not be trying to force 
you into giving us policy advice. But just reading your resumes 
reinforces what a resource we have in the Library of Congress.
    Ms. Lofgren. So if we can begin with you, Ms. Feikert.

 TESTIMONY OF CLARE FEIKERT, LL.M., FOREIGN LAW SPECIALIST FOR 
          THE UNITED KINGDOM, LAW LIBRARY OF CONGRESS

    Ms. Feikert. Thank you, Madam Chair, Members of the 
Committee.
    I would like to give a brief overview of the use of points 
based migration in the United Kingdom. Currently, the United 
Kingdom only has one points-based immigration system, the 
Highly Skilled Migrant Program. This was established in 2002 as 
a pilot scheme and ran for 1 year. It was decided it was a 
success and formally incorporated into the immigration system 
at the U.K. in 2003. It's been cited as one of the most 
dramatic developments in recent commercial immigration law.
    It allows highly skilled migrants to enter the country 
without the need for a work permit, business plan, the 
requirement to invest money or create jobs without a specific 
job offer. It allows migrants to enter the U.K. to seek work or 
self-employment opportunities.
    The rules for the Highly Skilled Migrant Program were 
amended in December, 2006, and now require applicants to score 
75 points or more based on various criteria that have evolved 
to ensure that the system selects the migrants most likely to 
be successful in the labor market of the U.K. Applicants must 
also to intend make the U.K. Their main home, be able to 
maintain themselves and any dependents without recourse to 
public funds and, where appropriate, obtain a visa in order to 
lawfully enter the country.
    Points are currently awarded in four areas: educational 
qualifications, past earnings, an age assessment--younger 
people obtain more points to even out work experience and 
earnings--and previous experience in the U.K. From December, 
2006, a mandatory English language requirement was introduced, 
as it was found that people needed to speak English in order to 
most benefit the labor market in the U.K. Applicants must have 
an international English language testing certificate at the 
level 6 or above to meet these requirements. Additional 
guidance on the implementation of these criteria are due to be 
published by the Government in May, 2007.
    The duration of stay under the Highly Skilled Migrant 
Program is initially granted for a period of 2 years, although 
this can be extended upon application. When applying to extend 
the duration of stay, the applicant must show that they 
continue to meet the criteria that they initially had to meet 
in order to obtain entry initially and again show that they 
have the mandatory English language requirement.
    If the applicant qualifies for this 3-year extension, they 
are then able to later apply for a British citizenship. They 
would then meet the 5-year requirement of lawful residence in 
the U.K. to then apply for British citizenship.
    The Highly Skilled Migrant Program has been considered 
successful by the Government in attracting top-class workers 
from around the globe to contribute to the UK's economy and to 
fill skill gaps in the UK's labor market.
    In its first year of operation, the program attracted 1,100 
successful applicants. In 2006, this number increased to over 
47,000. The December, 2006, part of the amendment to the 
criteria was to actually increase the points requirement on 
applicants that were attempting to come into the U.K. under 
this program.
    The system is relatively flexible and can be easily altered 
to meet the skill needs and requirements of the day. For 
example, there's currently an MBA provision that would award a 
migrant with an MBA from certain schools the full 75 points 
that are required in order to let them enter into the country 
using that, provided, of course, they obtain a visa.
    There are also--obviously, with any migration program, 
there are some abuses of the system that, if the Government had 
failed to address, would have led to public loss of confidence 
in this program as well as a loss of confidence from those that 
the U.K. Would have wished to apply under it.
    The application criteria, as I noted, were revised in light 
of this. It was considered by many that the initial criteria 
were too subjective, leading to speculative applications, 
people not showing that they were meeting the points, and the 
criteria themselves were difficult for case workers to 
consistently and objectively implement. The Government believed 
that this uncertainty had led to a refusal rate of 56 percent 
of decisions made in 2005.
    As the system is also entirely self-funding through fees, 
these cost the migrants each an application fee of $600, 
totaling nearly $14 million in fees alone, which could also act 
a deterrent for the people that the U.K. were truly trying to 
attract to come into the country.
    The Government altered the criteria in December, 2006, in 
an attempt to resolve this and prevent the uncertainty and 
prevent speculative, as well as some possibly fraudulent, 
applications.
    I would like to thank you again for inviting me to testify 
here today and thank you for your time and attention. I would 
be more than happy to address any questions you might have.
    Ms. Lofgren. Thank you very much.
    [The prepared statement of Ms. Feikert follows:]

                  Prepared Statement of Clare Feikert

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Mr. Clarke.

    TESTIMONY OF STEPHEN CLARKE, LL.M., SENIOR FOREIGN LAW 
              SPECIALIST, LAW LIBRARY OF CONGRESS

    Mr. Clarke. Thank you, Madam Chairman.
    In 2006, Canada granted permanent residence to 
approximately 250,000 persons. These immigrants were accepted 
in several different categories. There were economic 
immigrants, family class members, business immigrants and 
persons who had been nominated by one of the 10 provinces. 
Refugees are also counted in the figure, because refugees whose 
claims are recognized are eventually given permanent residence.
    Of the different categories, by far the largest is economic 
immigrants, which is mostly composed of skilled workers and 
independent workers and their dependents. This group accounts 
for over 50 percent of Canada's immigrants.
    Other family class immigrants account for less than one-
third of Canada's immigrants; and, as I think Senator Sessions 
very effectively pointed out, this is probably the major 
difference between Canadian and American immigration policies.
    In Canada, skilled workers are assessed using a point 
system. The point system is not used for other classes of 
immigrants. Canada actually has had a point system for many 
years. However, prior to 2002, the system was weighted in such 
a manner that in order for an independent immigrant to receive 
an immigrant visa it was virtually necessary for him or her to 
have a job offer for a position that there was no Canadian 
ready, willing, and able to fill. There was a job certification 
process.
    However, in 2002, Canada changed its immigration philosophy 
after finding that persons demonstrating specialized knowledge 
and initiative were the types of persons who were most likely 
to succeed in joining Canadian society. Therefore, the point 
system was revamped to de-emphasize job offers, although that 
still remains one consideration.
    So, under the current system, there are now six selection 
factors. The maximum number of points that a person can 
accumulate is an even 100, and the current pass mark is 67, 
which is somewhat lower than it was several years ago.
    The selection criteria and the maximum number of points 
that can be earned in each of the categories are as follows: 
For education, a person can earn up to 25 points--that would 
normally be for someone with a postgraduate degree--for 
language ability a person can earn up to 24 points, 16 for 
fluency in either French or English and an additional 8 for 
fluency in the other official language.
    For experience in a qualified field or position, you can 
earn up to 21 points. Experience--the maximum points for 
experience are earned with 4 or more years of work in an 
approved classification position.
    For age, persons between the ages of 21 and 49 can earn up 
to 10 points or are awarded up to 10 points. Persons who have 
arranged employment can earn another 10 points. And then 
finally there is sort of a catch-all category, which is called 
adaptability, for which a person can be awarded a final 10 
points, and for that category, remote, family relations are a 
consideration.
    One of the majors advantages of the new system is that it 
is relatively transparent. Prospective applicants can go on 
line and conduct a self-assessment of their chances of meeting 
the pass mark.
    The system is also very flexible. The Department of 
Citizenship and Immigration can raise or lower the pass mark to 
keep the number of new immigrants close to the large target 
figures established by the Government.
    Canada doesn't have country or hemispheric quotas, but it 
does establish annual targets based primarily upon its labor 
needs. Major sources of complaints, as was mentioned by Madam 
Chairman, are that not all new immigrants are able to find 
immediate employment in their chosen field, often because their 
foreign credentials are not fully accepted. There is some 
evidence that this problem has been growing even though the 
Canadian economy has been very strong in recent years.
    There is no easy answer to this situation, but it is well 
to remember that the current system was redesigned to give 
persons, who might otherwise have had little or no chance of 
obtaining a job offer in Canada, a chance to immigrate to the 
country. The system was never intended to guarantee all persons 
immediate employment in their chosen fields. Besides, many 
professions are licensed by provincial bodies; the Federal 
Government cannot order the provinces to accept foreign 
credentials. The most they can do is to assist new immigrants 
in obtaining the training or experience they need to act in 
their profession and to work with provincial organizations. And 
recently, the Government did set aside some money to assist in 
that endeavor.
    Ms. Lofgren. Could you summarize?
    Mr. Clarke. I will conclude.
    Ms. Lofgren. Thank you.
    [The prepared statement of Mr. Clarke follows:]

                  Prepared Statement of Stephen Clarke

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Lofgren. Ms. White.

  TESTIMONY OF LISA WHITE, LL.M., FOREIGN LAW SPECIALIST FOR 
       AUSTRALIA AND NEW ZEALAND, LAW LIBRARY OF CONGRESS

    Ms. White. Thank you for the opportunity to testify.
    Australia's immigration program is global and 
nondiscriminatory. It is divided into a migration program and a 
humanitarian program, both of which are further divided into 
streams and categories of visas.
    Currently----
    Ms. Lofgren. Would you move the mike a little bit closer to 
you.
    Ms. White. Currently Australia's migration program is 
focused on skilled migration and has been so focused since the 
late 1970's and early 1980's. Immigration to Australia is 
administered by the Federal Department of Immigration and 
Citizenship.
    Australia utilizes a point-based system in relation to some 
of its skilled migrant visas. The most common visas that 
utilize the point system are those of the independent, skilled 
migrants which includes students studying in Australia, 
Australian-sponsored skilled migrants, and state or territory-
sponsored skilled migrants. The point system is not utilized 
for family reunions, humanitarian visas nor in relation to 
employer-sponsored visas.
    Generally, skilled migrants have excellent labor 
participation rates within Australia, and certainly at least 
one study I have seen has suggested that the key criteria in 
relation to that are skills recognition and, primarily, English 
language skills.
    Under the point system, an applicant must meet initial 
criteria of age and language skills, and then their application 
is awarded points in relation to specified categories, 
primarily: qualifications; age: relevant work experience, 
whether or not their occupation is in demand in Australia; and 
English language skills. Additional points may be awarded for a 
qualified spouse, Australian qualifications, capital 
investment, other language skills (other community language 
skills) and Australian work experience.
    Under the point system, each visa has a pass mark, being 
the number of points necessary to obtain a visa, and a pool 
mark, being the number of points necessary to remain in the 
pool of applicants, should there not be sufficient pass-level 
applicants or should the pass mark be revised.
    Under the current immigration procedure in place in 
Australia, an applicant's qualifications are assessed for 
recognition in Australia prior to the applicant's arriving in 
Australia. In that case, you are not awarded the points for 
certain occupations until you offer proof that your 
qualifications have been assessed as being recognized in 
Australia. This does avoid underemployment of skilled migrants.
    The skilled stream of Australia's Migration Program is 
intended to enhance Australia's economy by allowing skilled 
people access to Australia's workforce. The benefits of the 
points system is it allows the Australian Government to 
systematically and objectively select the skilled migrants most 
likely to contribute to the objectives of the skilled migration 
program.
    It also further allows the Australian Government to 
regulate the number of skilled migrants by varying the points 
requirement according to planning levels set by the Australian 
Government. Thus, for example, to encourage skilled migration 
to regional and rural Australia, the applicants who are seeking 
to live and work in rural and regional Australia are able to 
enter it with a lower pass mark.
    Criticism of the point system and emphasis on skill 
migration in general are, firstly, suggestions that students 
are deliberately targeting educational courses that will 
maximize their points in relation to a visa application to 
Australia, that it is easy for applicants to be awarded 
additional points in relation to fraudulent claims of work 
experience; and that, secondly, an emphasis on skilled 
migration and subsequent reduction of places allocated to 
family-based migration may result in hardship to members of the 
Australian community.
    The New Zealand immigration program permits persons to 
migrate to New Zealand or, if currently within New Zealand, to 
obtain permanent residence. New Zealand's permanent migration 
program is divided into: skilled/business; family sponsored; 
and international humanitarian streams under which there are 
also specific categories.
    Currently, New Zealand's immigration program prioritizes 
skill-based migration, and it has emphasized skill-based 
migration since 1987.
    New Zealand's immigration system is administered by 
Immigration New Zealand, which is part of the Department of 
Labor.
    New Zealand utilizes the point system to select skilled 
migrants for the skilled migrant category visas. These visas 
grant permanent residence to a skilled migrant with no 
requirement of a job offer or current employment in New 
Zealand. The general objective of the New Zealand skilled 
migrant category is to provide New Zealand residency to persons 
with transferable skills to fulfill identified needs within the 
New Zealand economy.
    Genuinely skilled migrants have excellent labor market 
participation rates within New Zealand. Skilled migrants are 
awarded points on the basis of: qualifications; work 
experience; age; employment; whether their occupation is in 
demand in New Zealand; and whether they have any familiar 
relations in New Zealand. Thus, under the New Zealand system, 
applicants must satisfy basic criteria; they must be aged below 
55 years, be of good health and character and have a reasonable 
understanding of English.
    They must also score above a minimum point threshold after 
which they may submit an expression of interest to live and 
work in New Zealand. Essentially, it is an interest in 
residency within New Zealand. Once an expression of interest is 
submitted, it is assessed by Immigration New Zealand, who may 
invite the applicants to apply for residency; the assessment by 
Immigration New Zealand is essentially by the number of points 
obtained by the applicant.
    Ms. Lofgren. Could you summarize?
    Ms. White. I can. That is fine.
    [The prepared statement of Ms. White follows:]

                    Prepared Statement of Lisa White

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Lofgren. It has been very helpful--since I read all of 
the testimony over the weekend, it has been very helpful to 
have this testimony.
    I have a couple of questions before we turn to the other 
Members of the Committee.
    In these jurisdictions, how do they treat family immigrants 
and how does that differ from the way we treat family 
immigrants here in the United States?
    Each of you, quickly.
    Ms. Feikert. In the United Kingdom, family reunification, 
per se, is limited to spouses and it also now encompasses 
unmarried same-sex partners, unmarried partners, and civil 
partners, as well as traditional relationships, and extends 
down to children under 18.
    There is a provision for children over the age of 18 if it 
can be shown they are dependent upon their parents still, and 
if their parents will be able to provide for them without 
recourse to public funds to join them.
    As well, there is a provision for parents of the people 
over--under the work permit or however they happen to be in 
England, but it must be shown that the parents are dependent 
upon the people in the UK and have no other means of being able 
to take care of themselves in their home countries.
    Mr. Clarke. The Canadian system is fairly similar. It does 
not extend to extended relatives such as siblings or aunts, 
uncles, people in other degrees of relationship. So that is how 
Canada basically limits family class reunification.
    Ms. White. Essentially, in Australia, it is worked out on 
the basis of caps. Numbers for spouses and independent children 
are not capped, but other family relatives may be, that is, 
their numbers may be capped. But it is possible to bring in 
age-dependent relatives.
    Ms. Lofgren. Now I--you mentioned, in Australia, that it 
was a concern of the government that for students--that they 
might be skewing their studies to maximize their points; and I 
thought, why would that be a problem? I mean, if you need 
engineers and people study engineering, wouldn't that actually 
meet the needs of the system?
    Ms. White. This has been raised as an issue by independent 
studies, not actually a government study.
    Ms. Lofgren. I see.
    Ms. White. I guess the concern was not so much that the 
students were taking those courses, per se, but they were 
taking other courses that still qualified for the points, but 
may not have been as useful.
    I believe there were also some concerns raised about the 
quality of some of the courses taken by the students and 
whether they were actually coming out graduating and being able 
to participate in the workforce. There was concern that skilled 
migrants who were students, coming in by that visa, that their 
participation rate in the labor market was lower than the 
general participation rate of graduates; and that is a problem.
    Ms. Lofgren. Given the--that we have another panel, I am 
going to stop my questioning now and turn to Mr. King for his 
questions.
    Mr. King. Thank you, Madam Chair.
    First, I have to compliment this panel on their excellent 
command of the English language.
    And it occurs to me that at least the point systems that 
are out there that we are analyzing here today, and the ones I 
am aware of, come from English-speaking countries. And some 
would refer to that as Anglosphere.
    But I will ask the question, starting with Ms. Feikert, is 
that a coincidence, do you think?
    Ms. Feikert. That it is from an English-speaking country? I 
don't think that I could possibly answer that question.
    I do know that it is--one of the reasons that I believe 
that the scheme was introduced, the government stated was there 
is a change in demographics. There are skills in the labor 
markets that aren't being met by labor within the UK. They look 
to different countries to see how their models were attracting 
skilled migrants and based it off of the Australian model.
    It turns out that the majority of people that are being 
attracted into the country under the highly skilled migrant 
program are from India and from non-English-speaking countries.
    Mr. King. I think you have taken Ms. White off the hook for 
that question.
    Ms. Feikert. I am sorry.
    Mr. King. Then--but I will go to Ms. White and ask her this 
question then: In either Australian or New Zealand, either, are 
there points awarded for work experience that was gained in 
violation of temporary visas, people who are illegally working, 
with either country? Do they get merit for that, demerit for 
that? How is that handled?
    Ms. White. Off the top of my head, I am not entirely 
certain, but as a general rule, under both migration systems, 
that counts against an applicant, working in violation of a 
visa. So if that was found out, it might be--I would have to 
probably take that on notice.
    I think there might be some room around that if you weren't 
aware you were working in violation of your visa, or if it was 
one of those technical things and it was on one visa and it was 
expired and it was a couple of weeks of work for the same 
employer. But I would have to take that on notice.
    Mr. King. I would go ahead and submit that question for the 
record for an answer later so you can give it the opportunity 
to be confident of that.
    If either of the other two witnesses are confident in where 
that stands, as to whether there is merit or demerit for 
working in the country illegally, or do you prefer to answer 
that in writing?
    Ms. Feikert. I would prefer to answer it in writing.
    Mr. Clarke. I also prefer to answer it in writing.
    Mr. King. Then I go back to Ms. White, and again, in your 
written testimony, it shows that immigrants that are admitted 
under the independent skills, points-based program have the 
highest earnings out of all skilled migrants.
    So what do you think about the independent applicants that 
seem to be performing better than those that are sponsored by 
employers? What is the reason for that?
    Ms. White. That is not necessarily the outcome. I believe 
that figure is of the independent-skilled, and not necessarily 
better than the employer-sponsored, although it may actually be 
depending on the employer.
    I think it has a lot to do with the skills and criteria of 
the people who are coming. Just the nature of the system means 
they are incredibly high-caliber, as a general rule, 
applicants, and they have to be very confident of their ability 
to earn a job within Australia before they--I mean, Australia 
is physically a long, long way away from most other places.
    So, as a general rule, people who come are just very 
confident of their skills and they are very high caliber; and 
they are able to earn that level.
    Mr. King. Another, for fun, I notice that I believe the 
Australians and the British both call it a ``scheme.'' that is 
not a coincidence either.
    Ms. White. I am sorry?
    Mr. King. It is just a little aside, the different way we 
use language. The plans and strategy policies you put together 
are commonly referred to as ``schemes,'' and when we do that 
here, there is a different connotation here.
    But then I would go then to Ms. Feikert again, a series of 
questions about the reference to fraud in your testimony and 
how pervasive that has been. I see that you require original 
documents rather than copies. Can you explain that a little 
bit?
    Ms. Feikert. That's correct.
    The issuance of fraudulent documentation during visa 
applications and work permits is a fairly pervasive problem 
throughout the entire immigration system.
    One issue with the highly-skilled migrant program was that 
on the basis of just speculative applications, people weren't 
sure whether they would meet the criteria. They would submit a 
large number of documents in order to try and prove that they 
would meet these criteria. This was overwhelming the 
caseworkers, and oftentimes within there, there were some 
fraudulent documents. Given the volume and the difference 
between all of the documents that were being submitted, that 
was becoming increasingly difficult to determine whether they 
were genuine or fraudulent.
    So to counter this problem, they have introduced a 
requirement in that original documentation must be submitted, 
and that it should be--for some requirements, it should be off 
of a specified list of documents that they already--or they can 
easily verify.
    But I do know from other research, as well, that this is an 
issue in other areas of visa issues and work permits and 
various categories such as that.
    Mr. King. Thank you, Ms. Feikert.
    And not having time, I would love to go into the history of 
Australia immigration, Ms. White. But, instead, I will yield 
back to the Chair and thank you.
    Ms. Lofgren. Noting that they were not high skilled, they 
turned out okay. Their ancestors did.
    Ms. Jackson Lee for 5 minutes.
    Ms. Jackson Lee. Let me thank the witnesses and thank the 
Chairwoman and the Ranking Member for the series of hearings 
that we are having. I know that the witnesses from the foreign 
law--the foreign law specialists of the Law Library of Congress 
will be sharing some technical responses, but I believe, as I 
have been listening to you, you might be able to answer some of 
the questions that I am going to ask.
    Before I do that, I do want to note that this is a day that 
many, many citizens who happen to be of immigrant background 
are raising their voices regarding the need for this Congress 
to move forward on immigration reform; and I believe this 
Committee is moving expeditiously.
    I am somewhat frustrated--and this is my own view--by what 
seems to be a fishing expedition that the Administration seems 
to be on. We have started out with a framework that dealt with 
comprehensive immigration reform that included border security, 
a worker program. Some used the term ``temporary.'' I like the 
term ``worker program'' because it involves a number of aspects 
of work, whether it be agricultural or otherwise.
    And then the family reunification issue was a very 
important component; and, of course, access to legalization 
certainly included concepts, no criminal background, learning 
English, paying fines and fees.
    There is another element that I think has to be included, 
is the confidence of Americans that, one, we are concerned 
about their economic stability and their value to this Nation; 
and so some of us are gathering around the thought of ensuring 
that there is a component about job retention, job creation, 
and an emphasis on moving forward, with looking to Americans 
for positions before we go to the immigrant structure.
    But certainly to begin talking about points to me offers an 
all-around-the-world, all-around-the-thought processes. What 
can we do next? A fishing expedition, a point process, that to 
me demeans individuals who are coming as laborers, who have 
come in years past and then rose up the, if you will, both the 
intellectual and economic ladder.
    We are reminded that many came from European countries in 
the late 1800's and early 1900's, and I am not sure what level 
of degree they were, but they went into, if you will, unskilled 
labor work, and they moved up the economic ladder.
    I would think one of the harshest examples, and I think 
some will think it is harsh, but my ancestry, slave history, 
was not about points. It was about who could work the hardest 
and the longest in the hot sun. And many of us have suffered 
from that history, but we have pulled ourselves up by the 
bootstraps that we are looking for, the boots we are looking 
for. We keep trying to go up the ladder.
    So I am disturbed about a discussion on a point system, and 
I have a letter here to the Chairwoman that lists a number of 
organizations that are likewise disturbed. I think they are not 
disturbed about--I wouldn't represent their position to be we 
don't want to have reform that is strong and that has a basis 
to it that has border security, but what we don't like now is 
the labeling that seems to go on.
    May I pose a question, Mr. Clarke, simply in other 
countries, if they had a point system--and I might be open to a 
point system that also has family reunification--do they have 
balance, other balanced aspects, family reunification as well 
as maybe a point system so that we don't discard the 
opportunity for hard-working, tax-paying individuals who are 
here to be able to bring their families?
    And my second point is, many of us are gathering around the 
idea that I just mentioned: show Americans that you want to 
retain jobs for them. You want them to have first opportunity 
for those jobs. You want to create job training. A lot of our 
minority communities are sensitive about losing their jobs.
    Are those ideas seen in any other countries, or would you 
give some thought to an idea where you tell Americans their 
jobs are not in jeopardy or their ability to retain their job 
as well as a system that has points and family reunification?
    Mr. Clarke. Those are two very controversial questions.
    First, as to does Canada have family reunification, yes, it 
most definitely does. But, generally, economic immigrants 
outnumber family reunification by about two to one. That gives 
us almost the reverse in the United States. So that is a major 
difference between our two countries.
    As to the other point as to whether there is an emphasis on 
skilled workers, if I understand your question correctly, 
perhaps it threatens persons in this country who have trained, 
worked their way up into skilled positions themselves, whether 
it threatens them being able to hold on to that, I guess the 
Canadian experience is that that has not happened, that the 
people that have come in with high knowledge and high level of 
experience have been able to become successfully integrated 
into the economy without displacing Canadian workers.
    But I think your question is well put and probably needs 
further investigation and a longer history since we are only 
talking about the fifth year of the current program.
    Ms. Lofgren. The gentlelady's time has expired.
    The gentlelady from California, Ms. Waters.
    Ms. Waters. Thank you very much.
    To the young lady that was talking with us about the point 
system and the immigration system in the U.K., where are most 
of your immigrants coming from?
    Ms. Feikert. Under the points program or generally?
    Ms. Waters. Generally.
    Ms. Feikert. Generally, I don't think that I could 
specifically give you where most of the immigrants are coming 
from off the top of my head. I could definitely get back in 
touch with you.
    For the U.K., I could say it does exclude any countries of 
the----
    Ms. Waters. I'm sorry. I can't hear you.
    Ms. Feikert. I can say that wherever the countries where 
the immigrants would most likely would come from, it would not 
include members of the European Union or the European economic 
area. Off the top of my head, though, I am afraid I couldn't 
say.
    Ms. Waters. Do you have a large African population?
    Ms. Feikert. Not really African population. It is more from 
Pakistan.
    Ms. Waters. Arab League population?
    Ms. Feikert. Not a considerable Arab League population. It 
would be more--predominantly, the minorities are more 
predominantly from Pakistan and India currently.
    Ms. Lofgren. Would the gentlelady yield?
    You actually do list the numbers on page 8.
    Ms. Feikert. This is for entry under the highly skilled 
migrant program.
    Ms. Waters. And those immigrants from Pakistan and India 
and other places are basically through the point system?
    Mr. Feikert. They could enter into the country through any 
system.
    Under the point system----
    Ms. Waters. Do you have a lot of undocumented from those 
areas?
    Ms. Feikert. The undocumented workers the U.K. have only 
just recently been stated. They have recently just given how 
many undocumented workers there are in the U.K., and they did 
not break down demographic-wise.
    Ms. Waters. You recently had some unrest in the U.K.; and 
we were focused by the media on large numbers of, it appeared, 
Arab background and African background. Were these documented 
or undocumented? They were fighting about jobs. They were 
making a lot of noise about jobs.
    Ms. Feikert. I think the one that you might be referring to 
may have been the Bradford riots, and these were--I think these 
were initially documented people that had then gone out of 
status. And I do remember there being a backlash against the 
government because the people that stepped forward as witnesses 
to some of these events were then linked, prosecuted and 
deported because they had moved out of status. So it was a 
mixture.
    Ms. Waters. So there are some people who came in legally, 
they were documented, and then they lost their jobs?
    Ms. Feikert. No. They were--depending upon the visa that 
they would enter under, possibly they entered under a temporary 
visa worker where they would be legal in the U.K. for a period 
of 12 months. But then one issue that the U.K. Government is 
facing in terms of immigrants is that there is no departure 
check. So once somebody is in the U.K. They can remain there--
--
    Ms. Waters. Do you have a sizable number of immigrants who 
are coming in as temporary workers?
    Ms. Feikert. Off the top of my head, I can't pull the 
figures. I'm sorry. But I can definitely get back to you with 
those numbers.
    Ms. Waters. But you think maybe the temporary worker 
numbers are sizable?
    Ms. Feikert. There are over 50 different categories of work 
permits that people can enter into the U.K.; and with temporary 
workers, I think there are 15 different workers.
    Ms. Waters. What kinds of temporary work do they generally 
do?
    Ms. Feikert. There is a working holiday-maker scheme for 
people of the Commonwealth which is a cultural exchange. There 
is a seasonal agriculture worker scheme for unskilled people--a 
sect of base-skilled working scheme for unskilled people who 
work in the hospitality sector, and there are some schemes that 
literally just one or two people would apply under every year.
    Ms. Waters. So you may be in a situation similar to the one 
in the United States where we need agricultural workers and we 
need workers for low-paying jobs, entry level jobs, to support 
the economy.
    Ms. Feikert. That is correct.
    Ms. Waters. But these people don't come in. It is very hard 
for them to get legal status, permanent legal status.
    Ms. Feikert. That is correct.
    Ms. Waters. But if you are highly skilled with the point 
system, you are most likely--for example, if you are an 
attorney--I saw one of the cases here that you were asked to 
respond to--most likely you would be allowed to get in.
    Ms. Feikert. That is correct. That is correct. Skilled 
people and as well people that have specific job offers, they 
are more than likely going to be able to obtain a work permit 
and then a visa for entry into the U.K.
    Ms. Waters. So you have to have temporary workers, though, 
in order to support the economy.
    Ms. Feikert. That is correct.
    One negative aspect that the Government is saying that is 
coming from the temporary workers is that they have recently 
mentioned that one of the reasons that these temporary workers 
are needed is because the pay is so low and people in England 
just don't want these low-paying jobs. And then one member of 
Parliament from the U.K. said the reason they are low paying is 
because everybody is coming in from overseas to have these 
jobs, and it is depreciating the salary.
    But that is just a possibly political statement.
    Ms. Lofgren. The gentlelady's time has expired.
    Mr. Ellison. I was curious about the same topic. It is 
interesting, so I will pick up there. Can you describe the 
temporary program in the U.K.?
    Ms. Feikert. I would refer to probably the most popular 
temporary worker scheme, which is the seasonal agricultural 
worker scheme. That is where members from--if I can just 
actually refer to some notes----
    Mr. Ellison. Just seasonal agricultural.
    So how are the lengths of stay? Are they all the same? Is 
there a unified time period?
    Ms. Feikert. The seasonal workers are allowed to stay for a 
12-month period of time under which they must return. I think 
there is possibly a Category for extension for these workers, 
but I do not believe they can remain for longer than 2 years.
    Mr. Ellison. But 12 months and then can reapply and get 
another year?
    Ms. Feikert. Possibly.
    Mr. Ellison. What are their rights as temporary workers? 
Are they allowed to form unions?
    Ms. Feikert. I would have to get back to you in terms of 
whether they are able to form unions or not. I believe that 
they pretty much have the same rights.
    Mr. Ellison. I don't want you to speculate. If you don't 
know, you could just say that, and you can get back to us.
    I would also like you to let me know what percentage of 
them are in unions if they do have the right to organization.
    Does the U.K. have enshrined within its law the right to 
organization? Is it a statutorily granted or a constitutional 
right?
    Ms. Feikert. The U.K. Does not have a constitution.
    Mr. Ellison. You have the Magna Carta, right? But I mean do 
you have a statutory right to organization within the U.K.?
    Ms. Feikert. I would have to get back to you on that one as 
well.
    Mr. Ellison. Could you, please?
    Ms. Feikert. Certainly.
    Mr. Ellison. What is the average wage of one of those 
temporary workers as compared to the general wage?
    Ms. Feikert. It would have to be in the minimum wage 
requirement, which is currently in the U.K. $10 or $11 per 
hour.
    Mr. Ellison. So they have the right to demand the minimum 
wage.
    Ms. Feikert. That is across the board. They have to pay 
people the minimum wage.
    Mr. Ellison. That is good. That is good.
    And are these workers allowed to leave the employ of a 
given employer and go to another employer if they should so 
choose?
    Ms. Feikert. For the seasonal agricultural workers, I would 
have to, again, I am sorry, get back to you on that.
    Mr. Ellison. Could you look into that?
    One of the things I am really concerned about if we have a 
seasonal worker program and somebody comes to work for X 
Company. and they don't like their conditions but their status 
somehow prohibits them from going anywhere else, that would be 
a real problem for me. So I would be grateful if you could let 
me know what even grand--well, the U.K. Does about that.
    What is the rate of injury for workers in the program? Is 
it higher than the general population? Is it lower than the 
general population?
    Ms. Feikert. I would again have to get back to you on that, 
and I would also have to take into account they are doing 
manual labor and look at the statistics for categories of 
manual labor to get a better----
    Mr. Ellison. I would really love to know that.
    I guess you can tell where my questions are going. I want 
to know if the temporary workers in England are taken advantage 
of or not. I am not insisting that they would be. I am not 
claiming. I don't know. I am hoping you can shed some light on 
that.
    I am curious to know about New Zealand as well. Do you have 
a temporary workers program?
    Ms. White. I would have to get back to you on the exact 
outcome of the temporary workers program in New Zealand. I 
believe it might be similar to the one in Australia. Australia 
has a temporary--that is skilled again. It is generally skilled 
workers coming in.
    Mr. Ellison. Do you have a temporary agricultural program 
similar to what has been described by the earlier witness?
    Ms. White. No. Australia has not currently gone down that 
path, but it is investigating it, and the latest Government 
report on it looks at agricultural workers, but they would be 
considering limiting it to the Pacific Island.
    Mr. Ellison. But at this point there is no existing 
agricultural temporary worker program?
    Ms. White. That is correct. There is not.
    Mr. Ellison. Is there a temporary program for people who do 
factory work?
    Ms. White. You would have to define ``factory work.'' There 
are programs by which you can bring in temporary workers into 
Australia where there is a skilled shortage of those workers, 
and that could include some form of factory work. Generally, 
those programs look at if you have some skill, even if it is 
manual skill, fabric dyeers; machinists are an excellent 
example.
    Mr. Ellison. And given that you are not really sure about 
the program, it might be hard to answer this question, but I am 
also interested in whether there is a right to organize into a 
union if you are a temporary worker, whether you have the right 
to claim the minimum wage, what your rates of injury are, if 
they are different from other workers.
    Ms. Lofgren. Is that directed to all four countries 
represented?
    Mr. Ellison. Yes, ma'am. Actually, it is. And I would be 
very grateful to get some response from each.
    Thank you, Ms. White.
    Ms. Lofgren. The gentleman's time has expired.
    Thank you very much, panel. You have been very, very 
helpful, very enlightening.
    Without objection, Members of the Subcommittee will have 5 
legislative days to submit additional questions which we will 
forward and ask you to answer as promptly as you are able to be 
made part of the record.
    Ms. Lofgren. We would now ask our third panel to come 
forward.
    I am pleased first to introduce Dr. Demetrios 
Papademetriou--I didn't, hopefully, mess that up too badly--co-
founder and President of the Migration Policy Institute. Dr. 
Papademetriou holds a Ph.D. in comparative public policy and 
international relations and has taught courses at the 
Universities of Maryland, Duke, American, and the New School 
for Social Research.
    A prolific writer, he co-directs the Transatlantic Task 
Force on Immigration and has held an array of senior policy and 
research positions, including Director of Immigration Policy 
and Research at the U.S. Department of Labor, Chair of the 
Secretary of Labor's Immigration Policy Task Force, and 
Executive Director of the International Migration Review.
    I would also like to welcome Howard Greenberg, a partner in 
the Canadian law firm of Greenberg Turner. Mr. Greenberg chairs 
the Citizenship and Immigration Law Specialization Committee of 
the Law Society of Upper Canada and in this capacity certifies 
Canadian attorneys practicing immigration law.
    He co-edits the Immigration Law Reporter, the leading case 
reporting publication. He has chaired the Canadian Bar 
Association's National Immigration Section and the Nationality 
and Immigration Committee of the International Bar Association. 
Mr. Greenberg also teaches on the Faculty of Law at the 
University of Ottawa.
    We are also pleased to have Lance Kaplan with us, a partner 
with Fragomen, Del Rey, Bernsen & Loewy and a graduate of the 
University of Witwatersrand in Johannesburg and California 
Western School of Law in San Diego.
    Mr. Kaplan brings an extensive resume of international 
practice to our panel. He has participated on numerous 
Government liaison committees and formally directed his firm's 
global immigration services for a Big Four accounting firm.
    Finally, we have Robert Rector, a Senior Research Fellow 
with the Heritage Foundation in Washington.
    Mr. Rector's research is focused on the U.S. welfare 
system; and he has authored a number of works on the subject, 
including America's Failed $5.4 Trillion War on Poverty. Mr. 
Rector earned his bachelor's degree from the College of William 
and Mary and a master's from John Hopkins University.
    Each of your written statements will be made part of the 
record in its entirety, and I would like to ask that each of 
you summarize your testimony in about 5 minutes.
    As you have noted from the prior witnesses, we have this 
handy dandy little box. When it turns yellow, the light, it 
means there is about a minute to go; and when the light turns 
red, it means that the 5 minutes are up.
    Ms. Lofgren. So if we may begin with Dr. Papademetriou.
    Welcome, and thank for your patience and thanks for being 
here.

  TESTIMONY OF DEMETRIOS G. PAPADEMETRIOU, Ph.D., PRESIDENT, 
                   MIGRATION POLICY INSTITUTE

    Mr. Papademetriou. Thank you very much, Madam Chairwoman. 
It is good to see you again, and thank you very much for 
honoring us last week at the fourth annual legal conference 
that we cosponsored with a couple of other organizations.
    What I would like to do today briefly is talk a little bit 
about across points systems, because most of the things that we 
have heard today are very specific to each country.
    Secondly, I would like to answer the question of whether we 
should be relying on points systems; and, if we should decide 
that we should, exactly how should we be doing this. And I will 
make some overall judgements, if you will allow me, on the 
basis of about a couple of decades of looking at point systems.
    I would like to start by making a sort of a direct 
statement that points systems are essentially human capital 
accrual mechanisms. This is for countries that feel that either 
their educational or training systems somehow are not capable 
to fill needs in the economy, and they reach out to the rest of 
the world in order to bring in specialized talent to do that.
    Secondly, that the things that define good points systems 
are flexibility and constant adjustments. That is why you have 
heard from the other witnesses that other countries keep 
adjusting them in 2002, '03, '04, '05. Because, ultimately, any 
advantage that points system has is that, through research and 
evaluation, you can always try to do a little better. And that 
is another one of the hallmark issues about such systems.
    And all point systems, as we have heard, have four or five 
criteria that are common to all of them: age, education, 
occupation work experience, language. But what is more 
interesting than that is that there are five or six other 
categories, other criteria that different systems try to use in 
order to, in a sense, put forward some of the priorities that a 
specific country has at a specific point in time. And this 
includes employer nomination or job offers, previews or 
proposed earnings, etc. Increasingly as of late, in some 
systems you can meet all of the points pass marks simply by 
earning or having earned in the past $80,000 or $120,000 or 
what have you. Prior work experience or education in the 
country in which you are trying to immigrate to and the 
presence of close relatives also count toward points totals. 
Everybody more or less gets some points for having some close 
relatives in the country; and, increasingly, particularly for 
places like Canada and Australia that are trying to populate 
parts of the country that are depopulated, they may give extra 
points or extra consideration to people who are willing to 
commit to settling in a specific part of the country.
    So these are the kinds of things that pretty much the 
various systems have.
    So why are points systems so popular? Why are we having 
sort of the conversation that we are having in this country?
    Well, I think that we need to go back to the history of 
points systems. You know, a lot of the countries that have them 
decided to move into that direction because they were trying to 
avoid the ups and downs of too many or too few immigrants. 
Think of our own experience with H-1B visas. Any number that 
you can actually pick is not a number that the market will 
really have picked. It is a number that is imposed by an 
outside body, in this case, of course, the U.S. Congress. Well, 
some of those countries wanted to avoid this; and, at the same 
time, they wanted to add to the overall human capital of the 
country constantly and systematically; and that is what they 
decided to do.
    Also, these are countries that, in a sense, are continuing 
to grow and intend to continue to grow through immigration. So 
they want to improve overall economic outcomes by relying on an 
awful lot of talent from the outside. The assumption nowadays 
is that you cannot have too much human capital, rather than 
that you have to meet specific shortages or specific demand on 
the part of employers in order to meet your economic growth 
requirements.
    And, of course, very frequently, they have had weak 
universities when they started with the points systems or 
universities that were not particularly full service ones. So 
they were not producing enough engineers, enough of this, 
enough of that.
    Again, none of these conditions, it seems to me, really 
pertain to the United States.
    But points systems have also been politically useful. They 
give you a sense in most instances--well, I won't make a 
judgment; I will wait for you to ask me--a sense that these are 
objective measurements, you know, that somehow the Government 
is in charge, rather than employers or family members who have, 
in a sense, their own special interests.
    When you do that, you are beginning to put the bureaucracy 
in charge of all kinds of things your economy needs. Because, 
ultimately, you have to make a judgment on the part of the 
Government as to what the economy needs, which, you know, 
probably has some problems in a society like ours.
    Ms. Lofgren. Could we ask that you summarize?
    Mr. Papademetriou. The two or three ways that I think, if 
we want to accommodate a point system, we have to do so is very 
perhaps narrowly. We have the EB1 a visa. It takes a long time. 
It takes a lot of paperwork. We could simplify this by giving 
points to individuals who could qualify for that visa.
    There are many States in the United States that need people 
or need special qualifications. Perhaps we could give an 
opportunity to those States to add some points to the system 
and have some immigrants go there.
    And there are two more specific ways, and I will finish on 
that. If we indeed cannot agree on what the requirements should 
be for people to gain legal status, and we wanted to have a 
diaphanous, transparent, simple system, we can impose a point 
system on that.
    And, finally, temporary migration. There were several 
questions today about temporary workers who could have a point 
system that would allow temporary workers after meeting certain 
requirements to convert their status into that of permanent 
immigrants.
    Thank you, Madam Chair.
    Ms. Lofgren. Thank you very much.
    [The prepared statement of Mr. Papademetriou follows:]

            Prepared Statement of Demetrios G. Papademetriou

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Lofgren. Mr. Greenberg.

    TESTIMONY OF HOWARD GREENBERG, PARTNER, GREENBERG TURNER

    Mr. Greenberg. Madam Chair, thank you very much for 
inviting me today.
    The conversation has been quite stimulating, and it is my 
pleasure to bring a Canadian context to this discussion. So let 
me do so in the following way. I am going to deviate from my 
written presentation and actually respond to the language I am 
hearing today.
    First of all, what is a point system? A point system is a 
mechanism of selecting between a group of people.
    Mr. Greenberg. It is as arbitrary as you want to make it. 
It has factors that reflect your national interest, your 
economy, your political agenda. So a point system is a tool 
only, just like a lottery is a tool for allowing a large number 
of people to come in.
    So let's understand what the point system is in a larger 
context, and I think I'll try to take you through the Canadian 
context a bit. And I'm going to discuss--my discussion will 
have four aspects to it for the 5 minutes.
    Number 1 is a little bit of structure of Canada. And the 
groupings we let people in, number 2. Why the Canadian system 
is broken is number 3. And the lessons that you could learn 
from our system is number 4.
    In terms of structure, on or about November 1 of each 
calendar year, the Minister of Citizenship and Immigration 
tables before Parliament an immigration plan. An immigration 
plan tells the Immigration Department how many bodies to 
deliver in the next year and in what categories those bodies 
should be delivered.
    So I am very intrigued by your discussion about what 
Congress does and what the Department does. In our system you 
tell the Department pretty well what the game plan is and they 
go ahead and implement that. They are not micromanaged by 
Parliament each day. It is done on 1 day and that is it for the 
next year.
    Number 2, the groupings do not compete with one another. 
The government sets its priorities by, first of all, 
determining the volume of the immigrants that will come to 
Canada--for argument's sake, 265,000 on the high end--and then 
divides up that grouping appropriately. So there will be a 
certain number of groupings that are in that family class that 
are selected for whatever political reasons those might be. And 
there are a certain number that are in a range in the economic 
class, but they do not compete. And if you don't get one, it is 
not like you get more of the other.
    So the nice thing about that discussion that I have heard 
here today is that if you decide to increase the economic 
class, it doesn't have to be to the detriment of another class. 
It all depends on what the global sum is that you start with. 
If you create enough capacity in the system, everybody can win. 
It just means how large of a system do you want to create.
    And I should tell you, that debate is ongoing now in 
Canada, both in the forefront and the background, because there 
is some suggestion by the economists, some economists, one 
economist, that we should be moving to 1 percent of our 
population, which will be 300,000. So we are eeking our way up 
for that 1 percent. Nobody understands the rationale to the 1 
percent, but it is easy to calculate, and so we now know where 
the finish line is.
    So I have had a chance to discuss structure with you. 
Within the structure you have the groupings. Now, understand, 
within one of the groupings you have economic, and--I'm sorry, 
that is the blue that has disappeared on the chart. And then 
you say to yourself, well, how many are you taking in that blue 
grouping? And if you're talking, like we are about, according 
to my paper, about 140 to 158,000 in that grouping, you got to 
say to yourself, well, we don't have a lot of money to do this; 
so what kind of instrument can we use, what kind of blunt 
instrument can we use that we can sift these people through 
where we don't have to touch 158,000 people and interview them 
and expend a huge amount of money? And the answer is, why not 
just get a point system? So we started with a point system.
    We would run them all through the point system like flour 
through a sifter. But what did we find out about the previous 
point systems, that arbitrary system of selecting people? We 
found out that the criteria was not objective enough. It was 
too subjective. We had visa officers looking into people's eyes 
trying to figure out if they were personally suitable to come 
to Canada, and then say, I don't think so, I'm giving 2 points 
out of 10. Court challenges all over the place that decisions 
were too arbitrary. Language testing by a visa officer saying, 
say that to me again in English so I can hear how you say that; 
read me from a book.
    So when we got to the point of June 2002 when the new 
legislation came into effect, the answer was let's overhaul 
this thing and do a comprehensive immigration change. And we 
did. We were where you are now. And so if you sat in a small 
room with some of the decision makers like I did, and we had 
some focus discussions about what are we really doing here, 
they would say, look, our number one principle is we want to 
make this so objective that we don't have discrepancy amongst 
visa officers in the world. They don't like you in China, you 
fail; they like you in Hong Kong, you pass. Same guy being 
assessed. They don't want that. So let's see if we can make it 
more objective.
    But how about that language test? Well, there is this 
international language test, ILs. We'll choose a pass point to 
7 for maximum points. You write the test. Everyone writes the 
same one in the world. Great.
    What about the rest of the criteria? Well, I don't know, we 
kind of make up something, like your spouse has education, 
we'll give you 5 more points; you got a job in Canada, you get 
10 points. In other words, let's just throw together a whole 
combination. Great. Now what happens? Let's create a pass rate.
    Ms. Lofgren. Mr. Greenberg, we need to have you----
    Mr. Greenberg. Okay. Start a pass rate of 70. We move down 
to 67 points at the end of the day, pass rate. Why? It is 
arbitrary. And that is the tool that was used and that is the 
tool that is used.
    Here is the problem with the system. If you are coming in 
through the system and you are coming in through employment-
based jobs, you are getting your credit, you have a job offer, 
you are getting off the plane and you are hitting the ground 
running, great.
    If you are getting off that plane and you don't have a job 
offer in your hand, even though you have made a sufficient 
number of points, your point of assimilating into Canadian 
society is delayed considerably, if not permanently hampered. 
You are unemployed for months on end, and if you do get 
employment, you don't get employment in the standard that you 
left your country at. You come off the plane as an engineer, 
but you never practice as an engineer.
    So that is the breakage in the system, is that you don't 
come back into the system where you left your own country. And 
that is why the emphasis in my paper is an employment-based 
system. That is why I think you kind of got it right with the H 
visas. Thank you.
    [The prepared statement of Mr. Greenburg follows:]

                 Prepared Statement of Howard Greenberg

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Lofgren. Mr. Kaplan.

         TESTIMONY OF LANCE KAPLAN, PARTNER, FRAGOMEN, 
                  DEL REY, BERNSEN, AND LOEWY

    Mr. Kaplan. Madam Chairwoman, Members of the distinguished 
Subcommittee, thank you for the opportunity to testify today. I 
won't repeat what I have previously indicated in my written 
testimony, nor will I repeat the factors which are inherent in 
most of the countries' points-based systems. But I will focus 
some of my remarks today in relation to Australia specifically.
    The most important issue to note from a comparison of other 
countries' immigration systems is the realization that other 
countries who compete against us for global leadership and 
innovation are more aggressively harmonizing their immigration 
policies with their economic needs.
    In this knowledge-based economy, the key to success of any 
venture is having the right talent in the right place at the 
right time. The priorities that we have established within our 
immigration system have caused doors to be closed to such 
talent, albeit sometimes unintentionally.
    The question to consider for us is whether a points-based 
system will help us secure this much-needed talent within our 
vibrant economy. The concept of assigning points to immigrants 
first arose as a way for most countries to increase population 
by attracting industrious people into their workforce. In 
essence, a point-based immigration system allows the government 
to socially engineer its demographic. It is well accepted that 
Australia is considered to have a very effective points-based 
system and allocates points according to the age, skill-level, 
English language, and whether the occupation is in demand. And 
of course, there are other factors which have been mentioned 
here today.
    But whether a points-based system is appropriate for the 
United States requires careful consideration of the following 
issues:
    First, it must be flexible and respond to market changes. 
And would such a system work as well in our form of Government 
as it does under a Parliamentary structure where the government 
of the day establishes and implements policy in a more 
expedient manner? We cannot be responsive to market changes if 
we have to go through a legislative process each time we have 
to amend a list of jobs or adjust a pass mark.
    Second, even if Congress were to use its authority to 
delegate immigration policy to either the USCIS or the 
Department of Labor or the Department of State, is the 
rulemaking process necessarily more nimble or responsive to 
market demands? In 1990 Congress authorized the Department of 
Labor to place a list of shortage occupations on Schedule A. 
For the past 17 years, even though the structure of our economy 
has gone through many changes, and we have been through many 
business cycles, Schedule A has remained static. By contrast, 
Australia reviews its lists every 6 months.
    Third, what outcome do we as a Nation want to achieve with 
a points-based system that is not accomplished in the current 
system? A point-based system is one way to socially engineer a 
demographic when an influx of immigrants is needed to boost the 
country's workforce. The United States, as my colleague 
mentioned earlier, is not in that situation. What we need are 
qualified people to fill skill or labor gaps. And as such, a 
point-based system must be sufficiently flexible to identify 
particular needs of U.S. Employees and not just generalized 
credentials.
    One way to achieve this flexibility is to provide greater 
point value for prearranged employment or advanced education 
and experience. But it is unclear what results such a system 
would produce that differs from the current American system of 
employee-sponsored preference categories. Therefore, it must be 
clear as what we have achieved through this points-based system 
that cannot be achieved by removing from our system the 
obstacles of arbitrary quotas and processing delays. That is a 
really important point.
    It is also important to note that the points-based system 
is an avenue to address one component of an entry program into 
the country. But it cannot and should not be viewed in 
isolation or to the exclusion of any other component of a well-
contemplated, broader immigration program.
    The political administrator of economic structures of the 
U.S. economy are different from those of other countries 
currently administering a points test as part of the 
immigration programs. We have the fundamentals of a good system 
that addresses the economic needs of the United States. 
However, I believe that we need to sharpen the economic focus 
and significantly improve the procedural elements within our 
current existing program. And this will improve our ability to 
not only compete for, but actually bring in and absorb, skilled 
workers so that we can continue to reap the benefits of 
immigration.
    I also wanted to mention two important points. Most other 
countries, when they have a points-based system, use the 
points-based system for permanent residents primarily. When we 
have this discussion it is important to note that we have a 
temporary need for immigrants, we have a permanent need for 
immigrants, we have a permanent need for immigrants that are 
going to come in under the employment-based program and under a 
family-based program in a points-based system. In whichever way 
we ultimately decide to implement it, if we actually do, we 
would benefit greatly from fixing our current system, which 
would form the basis of the points-based system going forward, 
as well as potentially respond to the issues which the 
Senator----
    Ms. Lofgren. We are going to ask you to wrap up so we can 
hear from Mr. Rector.
    Mr. Kaplan. Sure.
    --which the Senator referenced in relation to the illegal 
immigration provisions. And with that, I will conclude, and 
thank you for the opportunity.
    [The prepared statement of Mr. Kaplan follows:]

                   Prepared Statement of Lance Kaplan

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Lofgren. Mr. Rector.

    TESTIMONY OF ROBERT RECTOR, SENIOR RESEARCH FELLOW, THE 
                      HERITAGE FOUNDATION

    Mr. Rector. Thank you very much for the opportunity to be 
here today. I am going to talk to you today about research I 
have done over the last 6 months concerning the fiscal costs of 
low-skill immigrants into the United States. By low-skill 
immigrants I mean individuals that do not have a high school 
degree.
    Over the last 20 years or so, the United States has 
imported about 11 million people without a high school degree 
through both the legal and illegal immigration channels. If we 
look at illegal immigrants, 50 or 60 percent of them do not 
have a high school degree. Even if we look at legal immigrants, 
about 25 percent do not have a high school degree. Overall, 
about a third of all adult immigrants do not have a high school 
degree. You could compare that to around 9 percent for the 
native-born population.
    Most people think that historically we have always had this 
pattern of bringing in individuals that are much lower skilled 
than the nonimmigrant population, but that is not true. 
Historically, in fact, immigrants were slightly more skilled 
than the native-born population. And what we have done in the 
last 20 years is an anomaly. Altogether there are about 4-1/2 
half million immigrant households headed by high school 
dropouts. They are about 5 percent of our U.S. population.
    Now, those households, looking at Census Bureau data and 
data from the Bureau of Labor Statistics and other Government 
sources, in fact receive about $30,000 a year in Government 
benefits. That includes Social Security, Medicare, 60 different 
means-tested welfare programs, public education costs, as well 
as costs like fire departments, police and highways, things 
that have to expand as you add additional people into the 
population.
    Those same households on average pay about $10,500 in 
taxes. And my study examines over 30 different types of taxes. 
These households pay very little in income tax, but they pay a 
significant amount of Social Security tax, very large amounts 
of consumption tax, sales tax, property tax, pay a substantial 
amount of State lottery costs and things like that. But, 
overall, there you have a gap for each of those households of 
about 19- to $20,000 a year of benefits that they receive that 
they do not pay for; that someone else has to pay for. As some 
people have said, that is equivalent to purchasing them a 
convertible automobile each and every year.
    If this type of individual comes into the United States or 
brings a family with him and remains for the course of his 
life, the net cost to the U.S. taxpayer, benefits minus taxes 
paid in, is about $1.2 million over his lifetime. If you take 
all of these low-skilled immigrant households in any given 
year, the net cost to the taxpayer is around $90 billion.
    I also find very significantly that there is virtually no 
difference in the fiscal cost of high school dropout native-
born households when compared to high school dropout immigrant 
households. They both cost a bundle. If you were to ask the 
average citizen, hey, we had 10 million native-born high school 
dropouts that came from Kentucky, Tennessee, Florida, everyone 
would realize, hey, that doesn't sound like a very good idea. 
But somehow in this debate, if the high school dropout is 
coming from Mexico or Guatemala, well, that is very different. 
In reality it is not very different. Both of those types of 
individuals are very costly to the taxpayer.
    Moreover, you will see in my written research that these 
households are a net burden on the taxpayer at every stage of 
their life cycle. From the moment they enter the country until 
the point that they die, these households on average cost 
significantly more in terms of benefits received than they pay 
in in taxes. And on average it is about $3 of benefits for 
every dollar of taxes paid in.
    The irony that we are looking at here is that the United 
States has a very generous system of support for disadvantaged 
Americans. It gives it to working disadvantaged Americans and 
those that don't work. We transfer about $1-1/2 trillion out of 
the upper middle class in taxes to provide benefits for those 
who have less advantages.
    The problem is that that system is justified, and that is 
also a system that we can afford. However, if you try to apply 
that same standard of generosity to a very large inflow of very 
poorly educated immigrants from abroad, this imposes enormous 
fiscal costs that the Nation really cannot afford. I would say 
that my estimates show that these low-skill immigrant 
households over the next 10 years alone will cost the taxpayers 
nearly a trillion dollars.
    I believe that as a national policy what we have 
inadvertently done is that we actually have an immigration 
system, through both legal and illegal immigration, that is 
forming a sort of welfare outreach where we are bringing 
welfare recipients in from abroad at huge costs to the 
taxpayer.
    Since there are probably a billion people that would like 
to come and live in the United States, I think as a general 
rule we should set our immigration policy so that those who 
come in will be a net gain to the U.S. taxpayer, not a net 
loss. Thank you.
    [The prepared statement of Mr. Rector follows:]

                  Prepared Statement of Robert Rector

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Lofgren. Mr. Rector, all those bells mean that we have 
votes on the floor. And all you have been here since 2:00. Your 
testimony has been terrific. What the Ranking Member and I have 
agreed to is that--there are four of us here--we will limit 
ourselves to 1 minute that includes both our question and the 
answer. And then we will not ask you to wait because it is 
going to be 40 minutes of voting.
    And so I would just like to ask Dr. Papademetriou, your 
suggestion was the first I have heard that if we, looking at a 
new worker provision, as has been discussed by the White House 
in sum, that if there were a temporary program, that there is a 
need for stability.
    I think Mr. Ellison had some questions about sort of 
creating an underclass that you might use some point system to 
convert or allow people who want to apply to convert to a 
permanent system. That is the first I have heard of that. Can 
you explain any more in 25 seconds?
    Mr. Papademetriou. Yes. Suppose that people come and work 
here for 3 years. At the end of those 3 years they could try to 
become permanent residents. It would be a point-like system. It 
c give points for some additional education, some greater 
knowledge of the language, of course not breaking the rules, et 
cetera, et cetera. Those people who would want to try to pass 
that screen and become LPRs can do so.
    Ms. Lofgren. My time is expired. I am going ask Mr. King 
for his 1 minute.
    Mr. King. Thank you, Madam Chair. For a lightening round I 
will go directly then to Mr. Rector and ask you a question I am 
confident you don't expect. And that is: Has the open borders 
lobby responded to your study and, if so, how?
    Mr. Rector. No. I think they are very afraid of this type 
of data. I would say that what my findings are are essentially 
the same findings the National Academy of Sciences has had 10 
years ago, which are low-skill immigrants are a huge burden on 
the U.S. taxpayer. We have tried to bury that piece of 
information in the debate.
    Mr. King. In other words, they are ignoring this study 
rather than trying to come up with some alternative numbers? 
There are no other numbers available out there that one could 
discuss alongside these to identify the distinctions between 
the rationale?
    Mr. Rector. There is no study that I am aware of that shows 
that low-scale immigrants pay more in taxes than they take out 
in benefits. It would be implausible to have such a study; 
although in my study we lay out all hundred equations. Very 
simply, anyone who doesn't like the way I did the tobacco 
excise tax can go in and do it their way. But the fact of the 
matter is I think the numbers kind of speak for themselves.
    Mr. King. Thank you, Mr. Rector. I ask unanimous consent 
that your study be introduced into the record.
    Ms. Lofgren. Without objection.
    Mr. Berman, 1 minute.
    Mr. Berman. I won't get into who the open borders lobby is. 
I haven't met them yet.
    Taxes versus benefits, Mr. Rector. Where do you put the 
value--one of the reasons income taxes is low is because wages 
for this population is pretty low. Where do you put the value 
of industries that would not be here but for the--basically the 
population of people who hasn't graduated high school?
    Let's just take agriculture. How do you value the enhanced 
value of having that part of the economy in perishable fruits 
and vegetables, seasonable agricultural industry, how do you 
value the costs in terms of economic security of not having 
such an industry in this country and having to import all of 
that? Where does that come into your equation?
    Ms. Lofgren. Mr. Berman----
    Mr. Berman. Now, there is my minute.
    Ms. Lofgren. I think we are going to have to get the answer 
in writing.
    Mr. Berman. I think this format, unfortunately, because 
there is no alternative, doesn't lead to an answer.
    Mr. Rector. I would be happy to give you that answer in 
writing, Congressman.
    Ms. Lofgren. I would ask unanimous consent that a letter 
from a number of organizations about this hearing be submitted 
into the record.
    I would thank the witnesses not only for being here, but 
for your written testimony which was excellent, and note that 
the record is open for 5 legislative days. We may send you 
questions in writing that we would ask that you answer as 
promptly as possible.
    We will have our next hearing on Thursday: The U.S. 
Economy, U.S. Workers, and Immigration Reform. It will be held 
May 3, as I said, at 3 p.m., and this hearing is adjourned.
    [Whereupon, at 5:15 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Questions submitted to each of the Law Library of Congress witnesses by 
the Honorable Steve King, Ranking Member, Subcommittee on Immigration, 
     Citizenship, Refugees, Border Security, and International Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Memorandum accompanying answers to post-hearing questions posed by the 
  Honorable Steve King, Ranking Member, Subcommittee on Immigration, 
Citizenship, Refugees, Border Security, and International Law, received 
             from Rubens Medina, Law Librarian of Congress

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Answers to post-hearing questions posed by the Honorable Steve King, 
  Ranking Member, Subcommittee on Immigration, Citizenship, Refugees, 
 Border Security, and International Law, received from Rubens Medina, 
                       Law Librarian of Congress

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions submitted to each of the Law Library of Congress witnesses by 
   the Honorable Keith Ellison, Member, Subcommittee on Immigration, 
     Citizenship, Refugees, Border Security, and International Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Memorandum accompanying answers to post-hearing questions posed by the 
     Honorable Keith Ellison, Member, Subcommittee on Immigration, 
Citizenship, Refugees, Border Security, and International Law, received 
 from Stephen F. Clarke, Senior Foreign Law Specialist, Law Library of 
                                Congress

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Answers to post-hearing questions posed by the Honorable Keith Ellison, 
  Member, Subcommittee on Immigration, Citizenship, Refugees, Border 
   Security, and International Law, received from Stephen F. Clarke, 
         Senior Foreign Law Specialist, Law Library of Congress

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Heritage Special Report entitled ``The Fiscal Cost of Low-Skill 
Households to the U.S. Taxpayer,'' by Robert Rector, Christine Kim, and 
Shanea Watkins, Ph.D., published by The Heritage Foundation, submitted 
     by the Honorable Steve King, Ranking Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Letter from the Alliance of Filipinos for Immigrant Rights and 
 Empowerment (AFIRE), et al. to the Honorable Zoe Lofgren, Chairwoman, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
